<html>
<title> - HEARING ON WOUNDED WARRIOR INSURANCE: A FIRST LOOK AT A NEW BENEFIT FOR TRAUMATICALLY INJURED SERVICEMEMBERS</title>
<body><pre>[Senate Hearing 109-746]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-746
 
HEARING ON WOUNDED WARRIOR INSURANCE: A FIRST LOOK AT A NEW BENEFIT FOR 
                  TRAUMATICALLY INJURED SERVICEMEMBERS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 7, 2006

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
31-336                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    Larry E. Craig, Idaho, Chairman
Arlen Specter, Pennsylvania          Daniel K. Akaka, Hawaii, Ranking 
Kay Bailey Hutchison, Texas              Member
Lindsey O. Graham, South Carolina    John D. Rockefeller IV, West 
Richard Burr, North Carolina             Virginia
John Ensign, Nevada                  James M. Jeffords, (I) Vermont
John Thune, South Dakota             Patty Murray, Washington
Johnny Isakson, Georgia              Barack Obama, Illinois
                                     Ken Salazar, Colorado
                  Lupe Wissel, Majority Staff Director
                   Bill Brew, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                           September 7, 2006
                                SENATORS

                                                                   Page
Craig, Hon. Larry E., Chairman, U.S. Senator from Idaho..........     1
Akaka, Hon. Daniel K., Ranking Member, U.S. Senator from Hawaii..     3
Salazar, Hon. Ken, U.S. Senator from Colorado....................     3
Murray, Hon. Patty, U.S. Senator from Washington.................     4
Thune, Hon. John, U.S. Senator from South Dakota.................    22

                               WITNESSES

Dominguez, Hon. Michael, Principal Deputy Under Secretary, 
  Defense for Personnel and Readiness, Department of Defense.....     6
    Prepared statement...........................................     7
    Mandatory Screening for Traumatic Brain Injury and Post 
      Traumatic Stress Disorder..................................    10
Lastowka, Thomas, Director, Insurance Service, Veterans Benefits 
  Administration, Department of Veterans Affairs; accompanied by 
  Steve Wurtz, Deputy Assistant Director, Insurance Service......    11
    Prepared statement...........................................    13
Keith, Sergeant John, Combat Wounded Veteran, Operation Iraqi 
  Freedom, U.S. Army.............................................    26
    Prepared statement...........................................    27
Chwat, Jeremy, Associate Executive Director, Policy and Service, 
  Wounded Warrior Project........................................    28
    Prepared statement...........................................    31


  HEARING ON WOUNDED WARRIOR INSURANCE: A FIRST LOOK AT A NEW BENEFIT 
                   FOR TRAUMATICALLY INJURED SERVICE-
                                MEMBERS

                              ----------                              


                      THURSDAY, SEPTEMBER 7, 2006

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SR-418, Russell Senate Office Building, Hon. Larry E. Craig, 
Chairman of the Committee, presiding.
    Present: Senators Craig, Thune, Akaka, Murray, and Salazar.

   OPENING STATEMENT OF HON. LARRY E. CRAIG, CHAIRMAN, U.S. 
                       SENATOR FROM IDAHO

    Chairman Craig. Good morning, ladies and gentlemen and 
welcome to the U.S. Senate's Committee on Veterans' Affairs.
    Today's hearing is entitled "Wounded Warrior Insurance: A 
First Look at a New Benefit for Traumatically Injured 
Servicemembers.
    As the hearing's title suggests, this is our first 
opportunity to hear testimony about the traumatically injured 
protection under servicemembers group life insurance benefit, 
or TSGLI. We are working on an acronym for it, but right now I 
am going to stay with TSGLI.
    More importantly, it is the Committee's first chance to 
examine whether this program, barely in operation for a year, 
is working as we in the Committee intended it to work. I refer 
to this benefit as Wounded Warrior Insurance for two reasons. 
First, because it was conceived for the benefit of America's 
warriors, our men and women in the military who bear the brunt 
of terrorist attacks that would otherwise be targeted at you 
and me and our loved ones. Second, because three young wounded 
warriors from Operation Iraqi Freedom brought this need for 
this insurance program to my attention.
    These three Army veterans met with me in my office in April 
of last year. One had lost a leg in combat. The second had lost 
two legs. The third had lost his sight.
    They all had spent a considerable amount of time recovering 
from their traumatic wounds at Walter Reed Army Medical Center. 
They told me of the financial hardships that wounded 
servicemembers and their families endured during lengthy 
recovery processes. They talked about spouses or parents who 
quit work to be with wounded servicemembers during their 
convalescence, and bills mounting up from expenses, both back 
home and living away from home.
    They asked that I introduce legislation to create an 
insurance benefit that would help bridge the gap in financial 
assistance servicemembers received from the time of their 
injury to the time of their rehabilitation and their recovery. 
And that is what we did.
    Working with Senator Akaka, who joined me as a cosponsor of 
the legislation, their idea became law in a little over a 
month. Legislation typically is not enacted so swiftly without 
having a lot of help along the way, and we did. Not only with 
Senator Akaka, who cosponsored it, but also with senior VA and 
DOD officials, who immediately answered the call by providing 
assistance in drafting the bill and making their support known 
early and publicly.
    What has resulted from all of our collective effort is that 
nearly 2,700 servicemembers with traumatic injuries have 
received payments ranging from $25,000 to $100,000 under the 
Wounded Warrior Insurance Program. They come from every State 
in America, including 18 from my State of Idaho. These are 
brave men and women who have lost their limbs, who are deaf or 
blind, who are paralyzed or severely burned, or still may be 
suffering from the effects of traumatic brain injury.
    With injuries of this magnitude, they and their families 
must be allowed to focus on rehabilitation and recovery and not 
on how they will make the next rent payment, or how they will 
pay the power bill. Wounded Warrior Insurance helps make that 
possible.
    Today the Committee will consider questions that should 
routinely be asked of any Government program. Is the program 
meeting the intent, the needs? Is the effort under way to 
respond as we expected? How well is it being administered? How 
can it be improved, if it needs to be?
    We have witnesses here today with extensive knowledge of 
the Wounded Warrior Insurance Program, who will help us answer 
some of these questions. For my part, there are three elements 
to the benefit that I consider to be essential if it is to meet 
the intent of the legislative purpose.
    First, eligible servicemembers must be identified quickly 
so that payment can be made immediately. Delay in payment would 
defeat the very purpose of the program. Second, the list of 
covered injuries must be relatively straightforward so that 
eligibility may be established expeditiously and not be delayed 
through a lengthy, drawn out adjudication process. And third, 
cooperation between VA and DOD and individual military service 
branches must be present at all times so that the seamless 
service may be provided to our wounded warriors.
    Before I introduce our witnesses let me turn to the Ranking 
Member of the Committee, my cosponsor of this legislation, 
Senator Akaka. Then I will turn to other of our colleagues who 
have joined us, but first and foremost, Senator Danny Akaka.
    Danny.

STATEMENT OF HON. DANIEL K. AKAKA, RANKING MEMBER, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you for calling this very important hearing.
    And I want you to know, Mr. Chairman, that I am very proud 
to have been an original cosponsor of your legislation that 
established traumatic injury protection. This important benefit 
is a good example of the wonderful things that can be done when 
Members work in a bipartisan manner.
    This program supplements existing DOD and VA benefits. As 
we discussed when we were crafting this new benefit, 
servicemembers and their loved ones face many financial 
hardships when a servicemember is hospitalized with injuries. 
This insurance program helps ease the financial burden during 
this critical time. It allows servicemembers and their families 
to focus on what is really important, and that is the recovery 
of the injured servicemember.
    In my home State of Hawaii, 35 claims have been paid under 
this program, totaling over $2 million. While I sincerely wish 
that there were not so many injuries that qualified for 
payment, I am nevertheless gratified that this important 
benefit has been available to ease the financial burden place 
on Island servicemembers and their families.
    I thank the witnesses for being here today. From all 
accounts, the traumatic injury protection program seems to be 
running well. I hope to hear from our panelists their 
suggestions on how this program might be administered even 
better, and also their views on what changes might be made to 
improve the existing law so that this benefit can be made. In 
particular, I am concerned that the retroactive portion of this 
benefit differentiates between those injured while 
participating in operations Enduring Freedom and Iraqi Freedom 
and those who were injured on active duty in other locations.
    Again, Chairman Craig, thank you very much for calling this 
hearing and I look forward to hearing the comments of the 
witnesses. I have another engagement, so I will be leaving 
early.
    Thank you very much, Mr. Chairman.
    Chairman Craig. Danny, thank you very much for being here 
this morning for this oversight hearing.
    Now, let me turn to Senator Ken Salazar. He is also one of 
the original cosponsors of this legislation.
    Ken.

                STATEMENT OF HON. KEN SALAZAR, 
                   U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you very much, Chairman Craig and 
Ranking Member Akaka, for holding this hearing today, and thank 
you for your leadership and sponsorship of this legislation.
    When I visit Walter Reed Army Hospital it is a stark, quick 
reminder as to why it is that this program is so important. I 
am pleased that it is up and running and that this Committee 
and the Congress supported the effort.
    In just a few short months, this Wounded Warrior Insurance 
has given over 2,600 American heroes the resources they need to 
recover from devastating traumatic injuries. Injuries that 
forever alter the lives of the brave men and women who fight 
for our country.
    We have one of those heroes with us today, Sergeant John 
Keith. Sergeant Keith, I thank you for being here to share your 
story. You are a true patriot and an example to us all. Your 
perspective on this program is the one that truly matters, and 
I look forward to hearing your take on whether the Federal 
Government is doing enough.
    Most of us can only imagine what it would be like to lose a 
limb, suffer extensive burns, or lose the ability to see and 
hear the world around us. Yet, each and every day Americans 
return from Iraq and Afghanistan and other war-torn corners of 
the world with these and other life-altering injuries. 
Amazingly, each and every day these same brave men and women 
continue on with their lives, nourished by the love and support 
of their families and loved ones and strengthened by their own 
determination to lead productive and successful lives.
    We would not be giving credit where it is so clearly due if 
we were to attribute the recovery and prosperity of so many of 
our wounded warriors to an insurance benefit alone. The Wounded 
Warrior benefit merely supplements the strength and resolve of 
our fighting men and women, and it can never come close to 
making up for the sacrifices that they have already made for 
our country.
    Given the short time in which the Wounded Warrior program 
was implemented and the fact that we have only seen a few 
months of its actual management, I am pleased at the success it 
has met with so far. However, I know that as is the case with 
every Federal program, there are some knots we still need to 
work through.
    I am concerned, for instance, as Senator Akaka is, that 
many of our Nation's greatest heroes are still unable to 
collect Wounded Warrior benefits because they were injured 
before the effective retroactive date. Now that we know the 
program can work, I am interested to hear the perspectives of 
this panel and my colleagues on whether it can and should be 
expanded.
    I would also like to discuss whether VA's outreach program 
can be more effective, particularly to rural communities. I am 
eager for the testimony of Veterans Affairs and DOD 
representatives who are here with us today and hopeful that 
with their help--with your help--we can make this program even 
better.
    Thank you for being with us today.
    Thank you, Mr. Chairman.
    Chairman Craig. Senator Salazar, thank you very much. Now 
let me turn to Senator Patty Murray, who is also a strong 
supporter of this legislation.
    Thank you, Patty.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you, Mr. Chairman and Senator Akaka, 
for holding this hearing. I want to join in commending both of 
you for working on this really important issue and helping to 
expand the servicemembers group life insurance to include 
traumatic injury protection.
    This was a major accomplishment for both our servicemembers 
and our veterans, and I look forward to working with everyone 
to ensure that this program runs smoothly. I also want to 
welcome both of the panels who are here today, and I look 
forward to hearing about the initial response to the program 
and what impact it has had.
    I think everyone in this Congress and in this room will 
agree that there is nothing more important than taking care of 
the men and women in uniform as they come back from combat 
overseas. Nearly 20,000 servicemembers have returned from Iraq 
with injuries. Thousands more have psychological injuries and, 
to date, 185,000 veterans from Iraq and Afghanistan have 
already sought VA health care.
    So, let me be clear. Of the 589,000 separated Iraqi and 
Afghani veterans, 185,000, that is over 31 percent, have sought 
VA health care. That is thousands more veterans with combat-
related disabilities than either the Department of Defense or 
the VA plan to take care of. The Department of Defense and the 
VA have to come forward with a real, comprehensive plan on how 
the Administration intends to handle providing the service that 
those veterans need.
    Mr. Chairman, beyond that, I am very troubled to hear that 
there have been an increasing number of soldiers returning from 
the battlefield with traumatic brain injuries and at risk for 
mental health problems. According to the Pentagon, there have 
been over 1,200 servicemembers that have returned from Iraq and 
Afghanistan that have been diagnosed now with traumatic brain 
injury. And there are potentially hundreds more that have not 
been screened or may have problems that are undiagnosed. As we 
all know, well over a third of returning servicemembers are now 
seeking mental health care.
    So my question to this panel is going to be, if the 
Department of Defense is willing to provide, to date, up to 
$165 million through TSGLI, and if early detection and 
screening for traumatic brain injury and PTSD will help 
decrease the disabilities of returning servicemembers, why is 
the Pentagon not requiring mandatory TBI and PTSD screening?
    We know that allowing traumatic brain injuries and PTSD go 
untreated can ultimately lead to more severe mental health 
disorders and physical ailments. So, I want to know why we are 
not aggressively screening servicemembers. I think that the DOD 
and the VA should be more proactive and more aggressive with 
the care and treatment of our servicemembers as they transition 
out of service and return from combat zones.
    TSGLI is part of the solution, and I am proud of what it 
provides to our soldiers and our sailors, our airmen and our 
Marines. But we also owe it to those servicemembers to screen 
them for TBI and PTS and to aggressively pursue treatment to 
help provide them with the best care as soon as possible to 
make sure that we do not let these problems linger on for 
years, or let them go undiagnosed until they have substantially 
severe symptoms.
    TSGLI eligibility has also been expanded recently from 1 to 
2 years. I support that extension, but I still have concerns 
about the limit of time it takes for certain trauma and mental 
health problems to surface after being injured. I am afraid 
that we are still, by that limitation, denying veterans the 
ability to access this coverage solely because of that 
eligibility period.
    Mr. Chairman, TSGLI is a great first step, and I hope to 
hear today how the Administration is going to aggressively 
screen for and treat both TBI and PTSD, and I will pursue 
within my questioning time.
    Thank you very much.
    Chairman Craig. Senator Murray, thank you very much.
    Now, let me introduce our panelists. We have two panels of 
witnesses to help us answer some of the questions that will be 
asked today of this program.
    On our first panel, we are joined by the Honorable Michael 
Dominguez, Principal Deputy Under Secretary of Defense for 
Personnel and Readiness; and Mr. Thomas Lastowka, Director of 
the Veterans Benefits Administration's Insurance Service. Mr. 
Lastowka is accompanied by Deputy Assistant Director for VA 
Insurance Services, Steve Wurtz.
    On our second panel, we are fortunate to have Sergeant John 
Keith. As Senator Salazar mentioned earlier, Sergeant Keith is 
a combat wounded veteran of Operation Iraqi Freedom and a 
recipient of the Wounded Warrior Insurance Program.
    Sergeant Keith will share with us his personal story 
following his combat wounds through to his receipt of the 
payment of the program.
    Joining Sergeant Keith is Jeremy Chwat, the Associate 
Executive Director of Policy and Service of the Wounded Warrior 
Project.
    As all of you have heard from my earlier comments, the 
Wounded Warrior Project was instrumental in the conception of 
this benefit, and Mr. Chwat's testimony is of particular value 
to us today.
    So we welcome all of you to the Committee. We will start 
with our first panel, and with you, Mike. So, please proceed.

  STATEMENT OF HON. MICHAEL DOMINGUEZ, PRINCIPAL DEPUTY UNDER 
 SECRETARY, DEFENSE FOR PERSONNEL AND READINESS, DEPARTMENT OF 
                            DEFENSE

    Mr. Dominguez. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to be here today.
    And thank you for the legislation that created traumatic 
injury insurance coverage for members of the uniformed 
services. It is my privilege to report to you on our progress 
in implementing this important program, in close cooperation 
with our partners from the Department of Veterans Affairs.
    I would like to open today with a few brief comments that 
will supplement the more detailed written statement that I have 
provided and that I request be incorporated into the record of 
this hearing.
    Chairman Craig. Without objection, all of your written 
testimonies will be made part of the record.
    Mr. Dominguez. Thank you, Sir.
    Senator Craig, let me say how in my previous position as 
Assistant Secretary of the Air Force, I enjoyed working with 
you in your capacity as a member of the Air Force Academy's 
Board of Visitors. I appreciated your leadership in that 
important role and I am equally pleased to recognize your 
leadership role in creating the traumatic servicemembers group 
life insurance program.
    I do also want to say how impressive that piece of 
legislation is in terms of providing the Department of Veterans 
Affairs and DOD the flexibility to set up a program, try it, 
and amend it as we go, as we grow, and as we learn in it. I 
think that it was a piece of enlightened legislation, Sir, and 
I compliment the Committee on that work.
    I mentioned already our partners in the Veterans Affairs 
Department. The strong partnership with VA is an essential 
component of our ability to provide quality care for those who 
have served in the Armed Forces. The VA/DOD Joint Executive 
Council has completed its third year in a joint effort to 
enhance coordination and resource sharing. Our efforts, 
together with the support and encouragement of the Congress 
have improved the effectiveness and efficiency of service 
delivery across a wide spectrum of programs.
    The TSGLI program is a model of that cooperation, and I 
thank my colleagues here today from the VA for their 
contribution and their service to our Nation's veterans. There 
are other significant areas of cooperation between the DOD and 
the VA. One that I hope to speak to you about in the future 
involves the much in the news, but also much misunderstood, DOD 
and VA efforts to coordinate sharing of data from our two 
electronic health record systems.
    I am also pleased to acknowledge in testimony today the 
extraordinary contribution to our injured and wounded from a 
wide variety of private, not-for-profit organizations, 
including the Wounded Warrior Project, a group you will be 
hearing from in the next panel. I am pleased with our 
partnership, and I am pleased with the progress we have made 
implementing this program. Our work attending to our 
partnership and improving stewardship of the TSGLI program is 
not complete. However, we can always do better and we will work 
tirelessly to do so.
    So, I look forward to your questions. Thank you.
    [The prepared statement of Mr. Dominguez follows:]

 Prepared Statement of Hon. Michael Dominguez, Principal Deputy Under 
  Secretary of Defense, Personnel and Readiness, Department of Defense

                              INTRODUCTION

    Mr. Chairman and Committee Members, thank you for the opportunity 
to be here today and thank you for the legislation which created 
traumatic injury insurance coverage for members of the Uniformed 
Services. It is my privilege to discuss the Traumatic Servicemembers' 
Group Life Insurance (TSGLI) program.
    TSGLI is an extraordinary insurance program for people in uniform. 
While the program applies equally to all branches of the Uniformed 
Services, those of the Department of Defense represent the vast 
majority of persons affected, making DOD the principal program client. 
And it is in that context that we view this program--where the 
Department, as an employer client, obtains a product for our people.

                     PRIMARY ASPECTS OF THE PROGRAM

    Let me emphasize that, in the Department's view, the program is 
working very well, and the Department of Defense is a satisfied 
customer. In the following paragraphs, I address several aspects of the 
program.

Availability
    The TSGLI benefit is provided retroactively for members who 
incurred severe losses as a result of traumatic injury between October 
7, 2001 and November 30, 2005, if the loss was the direct result of a 
traumatic injury incurred in the theater of operations during Operation 
Enduring Freedom or Operation Iraqi Freedom (OEF/OIF). Beginning 
December 1, 2005, every member who has Servicemembers' Group Life 
Insurance (SGLI) also has TSGLI. TSGLI coverage applies to active duty 
members, drilling reservists, and reservists performing funeral honors 
duty or 1-day muster duty.
    There are several fundamental benefits associated with the linkage 
of SGLI and TSGLI coverage. First, coverage under SGLI is automatic and 
includes TSGLI coverage. No member is without SGLI coverage unless he 
or she specifically chooses that condition. Second, additional coverage 
for traumatic injuries is included in SGLI life insurance coverage for 
an additional cost of only $1.00. If the member finds the coverage 
under SGLI is greater than they desire, they can make adjustments to 
the SGLI coverage amount without affecting their TSGLI coverage. Third, 
the DOD is an employer client for both SGLI and TSGLI, obtaining a 
benefit for our people from the Department of Veterans Affairs (VA). 
The VA, in turn, contracts with an insurance provider to manage the 
benefits. This insurance provider underwrites the broader risks of the 
program. This structure is an important aspect of the program that 
makes it particularly robust. We have a great working relationship with 
the VA Insurance Center staff and have always found them to be most 
responsive to our needs.

Outreach for Retroactive Claims
    The Services identified potential claimants for the retroactive 
portion of TSGLI by reviewing casualty lists to ensure the injury 
occurred during the covered period and in qualified locations. Members 
listed as seriously wounded, very seriously wounded or temporarily or 
permanently disabled were flagged as potential beneficiaries. A letter 
was mailed to this group stating that the member had been identified as 
a potential beneficiary and directing them to the appropriate points of 
contact to begin the application process. In addition, those members 
who had died after a period of seven or more days in a treatment 
facility were identified as potential beneficiaries and letters were 
mailed to their survivors.
    The National Policy Director for the Wounded Warrior Project, a 
group that assists men and women of our Armed Forces who have been 
severely injured during the conflicts in Iraq, Afghanistan, and other 
locations around the world, provided a list of significantly wounded 
Servicemembers to DOD. Although not all members on this list qualified 
for payment under the retroactive portion of the law, the list was a 
good cross check of recipients.

Prospective Outreach
    We in the DOD personnel community have worked hard to ensure that 
members are made aware of the TSGLI benefit. All Services have created 
a Web site for dissemination of program information and application 
procedures for members. In addition, each Service provides a 1-800 
number for members to call for information regarding any aspect of the 
program. These resources are available for active duty, Reserve 
members, members who have transitioned from a military Service, and 
surviving spouses.
    In November 2005, members were alerted to the new TSGLI program 
through a statement on the Leave and Earnings Statement. The statement 
was tailored to each Service, but stated essentially that, effective 
December 1, 2005 the SGLI deduction would increase $1.00 per month for 
traumatic injury protection (TSGLI). The statement then directed them 
to the VA insurance Web site for additional information.
    In addition to DOD press releases announcing important program 
aspects, articles have appeared in various media including Military 
Times Newspapers, Army Families Online, the Association of the United 
States Army, The American Legion, and the National Guard Association of 
the United States, which highlighted the benefits for members of the 
Reserve.

The Application Process
    The application process for a TSGLI benefit involves a series of 
steps which allows for rapid payment of benefits to members who 
qualify, with checks inserted to prevent errors. A member in a military 
treatment facility will learn about the program from a patient advocate 
or medical personnel who will help them obtain a TSGLI certification 
form. Those members, who have suffered a loss due to a traumatic event, 
submit a certification form as soon as they are able or the guardian or 
attorney in fact may submit the application on their behalf. A 
physician, either in a military treatment facility or civilian 
hospital, documents the extent of the injuries. The certification form 
is then forwarded to the respective military Service via fax or e-mail 
for certification. Each Service certification officer will typically 
use DCIPS--the Defense Casualty Information Processing System to 
confirm the dates, type, and extent of the injury. Once certified, the 
form is sent to the Office of Servicemembers' Group Life Insurance 
(OSGLI) to verify SGLI coverage and make payment.

Cost
    The Department of Defense bears the administrative cost of 
collecting premiums and tracking coverage. DOD sent initial funding to 
the VA in the amount of $28 million, broken down by the estimated cost 
per Service for program startup costs. Because the program had not 
begun to collect premiums from members, this amount was needed to 
provide payment for prospective cases that were expected in the first 
year. In addition, a $5.7 million monthly payment was sent to VA for 
the Services' share of TSGLI extra hazard reimbursements, the 
additional amount, over and above the amount collected through premiums 
from members due to the increased injuries from conflict. This monthly 
payment was temporarily suspended in April 2006 because the amount on 
hand is sufficient to pay current TSGLI claims.

Delivery of Benefits
    The Servicemember is the beneficiary of TSGLI. Although the member 
may not name someone other than himself or herself as the TSGLI 
beneficiary, if the member is legally incapacitated, the benefit is 
paid to his or her guardian or attorney-in-fact. The member may choose 
the method of payment from three choices: (1) Electronic Funds Transfer 
(EFT), in which the TSGLI payment is electronically credited to the 
bank account specified by the Servicemember, (2) An interest-bearing 
checking account, in which the Servicemember receives a checkbook that 
gives the member ready access to the money, or (3) A Check, in which 
the Servicemember's guardian or attorney-in-fact receives a single 
check on behalf of the Servicemember for the full TSGLI benefit 
payable. This option is available only to the Servicemember's guardian 
or attorney-in-fact, if one is needed. The Department is extremely 
pleased with the responsiveness of OSGLI, which typically pays 
certified claims within 48 hours of receipt.

The Appeals Process
    Each Service is tasked with providing policy and implementation 
guidance for the appeals process. Although each Service maintains a 
unique structure for resolving appeals, the process is similar. A 
member who has received a letter from OSGLI indicating that their claim 
has been denied is provided contact information for the appeals 
process. The letter will indicate the reasons for denial and the method 
in which to appeal the decision. It is the member's responsibility to 
compile the documentation for an appeal. The Service board for appeals 
makes a final determination and notifies each recipient of the outcome. 
Each Service uses an existing board to act on appeals. The Army for 
example uses the same board that is used for combat-related special 
compensation determinations.

Uniform Application
    One of the most significant goals was ensuring uniform application 
of standards in the TSGLI eligibility certification process. That is, 
if a member of the Air Force receives a benefit under TSGLI for an 
incurred traumatic injury, a member of the Army experiencing a similar 
injury should receive the same benefit. To ensure this uniformity of 
application, VA, OSGLI and DOD established a joint working group to 
resolve rules for application of the standards for the schedule of 
payments for traumatic losses. This group has continued to hold weekly 
conference calls to discuss needed improvements to the program. 
Additionally, VA and OSGLI have provided training, most recently 
sponsored by the Army on July 25, 2006, for all Service certification 
officers. Regular communication among the Service certification 
officials, Office of the Secretary of Defense, OSGLI, and VA has helped 
ensure a uniform certification outcome among the Services.

Numbers of Claims
    Estimates of retroactive claimants from OEF/OIF were approximately 
2,100 members. This estimate was derived by examining the total number 
of casualties during the period (approximately 6,300) and estimating a 
high percentage of recipients among members who were victims of 
explosives or burns, or listed as amputees. A total of 2,261 
retroactive claims have been approved as of August 25, 2006. Estimates 
for prospective claimants were approximately 1,000 members per year, 
which was based on the total number of casualties reported on an annual 
basis. A total of 403 claims under the prospective program have been 
paid as of late August, 2006, versus our estimate of 1000.

Payment Timelines
    The most significant factor in determining the amount of time that 
payment takes to reach an individual member is the type of injury 
sustained. Whereas injuries that result in amputation may be submitted, 
certified, and paid within 7 days or less, injuries that document loss 
of Activities of Daily Living (ADL) may take up to 45 days or more 
because these injuries require observation over a period of time before 
a physician can verify the extent of the injury. Many claims, 
especially those for loss of ADLs, typically include several pages of 
documentation. Service personnel who certify the claims diligently 
examine each claim to ensure that potential recipients are correctly 
paid.

Outstanding Issues--Activities of Daily Living Claims
    At the inception of the program, VA, DOD, and OSGLI worked to 
define the standards for payment of TSGLI benefits based on loss 
involving the inability to carry out the activities of daily living. 
Besides members who remained in a coma or suffered a traumatic brain 
injury, some members, after suffering a traumatic event, remained 
hospitalized without the ability to take care of daily basic functions. 
Using a term understood within the medical profession, we worked to 
define the limits for the loss of activities of daily living to address 
members who may have suffered no visible external injuries, yet were 
unable to care for themselves, losing the ability to perform two of six 
typical functions: bathing, eating, toileting, transferring, dressing, 
or continence.
    This category of loss continues to lead all others in number of 
claims and compensation amounts. It is also the most difficult in which 
to find evidentiary support for the retroactive cases. Further, because 
this category was not anticipated when care was given, many treatment 
records do not contain the necessary documentation to support the 
claims. In cases where there is little or no evidence to support the 
claim for the loss of Activities of Daily Living for an extended 
period, medical personnel must examine treatment records and estimate 
the length of ADL loss for claim certification making these cases more 
manpower intensive.

                               CONCLUSION

    All in all, the TSGLI has proven to be a beneficial program. The 
structure of the program provides strength and agility. The Department 
of Defense, as the employer client, relies on VA as the Government 
provider to keep the program operationally sound. The contractor 
consistently brings to the program the most modern and attractive 
features available to the insurance industry. This makes for a 
progressive benefit that keeps getting better without increasing the 
insurance premium our troops pay. Overall, the TSGLI program structure 
has proven to be one of exceptional strength that keeps the program 
among the best in the business.
    We are very appreciative of the traumatic injury insurance provided 
for our Servicemen and women in uniform by Congress. Thank you for the 
opportunity to discuss this critical program that is so important to 
our dedicated young men and women in uniform today.
                                 ______
                                 
   Mandatory Screening for Traumatic Brain Injury and Post Traumatic
                            Stress Disorder

    The Department proactively evaluates the health of all 
servicemembers following deployments. Because of the Department's great 
concern for the post deployment health of servicemembers, all of our 
returning warriors receive a post deployment health assessment and 
reassessment. Most major health issues are found and taken care of at 
the time of the assessments.
    There is currently no validated screening instrument for Traumatic 
Brain Injury (TBI) to use on those returning from combat theaters. 
Several questionnaires done by or at the request of unit commanders for 
returning servicemembers have asked if they ever lost consciousness 
and/or ``saw stars.'' About ten percent of responders said they had.
    Because the Armed Forces Epidemiology Board (AFEB) recently 
recommended post deployment screening, the Department of Defense (DOD) 
is developing such a tool for rapid deployment. The Army has begun a 
process to identify servicemembers at the time that a possible TBI 
(head injury or blast exposure) occurs and to assess the 
servicemembers' mental functions in order to determine their ability to 
continue with their mission. This was based on an initial document 
produced by the Defense and Veterans Brain Injury Center (DVBIC), which 
was simplified for easier use in the field by medics. The Marine Corps 
is also working on such a document; however, the Marines are working to 
refine their guidance based on feedback from providers in-theater.
    The goal of these processes is to identify those who have suffered 
a TBI; to decide whether or not they need further evaluation at a 
higher level of care; and, to provide guidance as to whether they can 
continue combat or other operations that may expose them to another 
potential TBI, or that may require cognitive function or reflexes that 
may have temporarily degraded as a result of TBI. This process also 
provides medical documentation for future evaluations.
    The AFEB further recommended that DOD would benefit from a 
systematic policy-driven approach to the prevention, medical 
assessment, and management of TBI, and that its primary focus should be 
on in-theater TBI prevention, assessment, and medical management. A 
navy-sponsored conference on hospital-based treatment and 
rehabilitation, including outpatient rehabilitation, convened September 
18-20, 2006. A DVBIC-sponsored conference on first responders and in-
theater management of TBI will convene mid-November 2006. These 
sessions will facilitate the policy driven approach as recommended by 
the AFEB, and address the additional AFEB recommendations, including 
implementation of a pre-deployment baseline screening tool to provide a 
measure against which post deployment or post incident evaluations can 
be compared.
    In addition, Post Deployment Health Assessments contain four 
questions that ask about symptoms which may indicate the need for 
further medical evaluation for Post Traumatic Stress Disorder. Those 
same questions are used on the Post Deployment Health Reassessment 
which is done three to six months after individuals return from 
theater.

    Chairman Craig. Mike, thank you very much.
    Now, let us turn to you, Tom. Please proceed.

  STATEMENT OF THOMAS LASTOWKA, DIRECTOR, INSURANCE SERVICE, 
   VETERANS BENEFITS ADMINISTRATION, DEPARTMENT OF VETERANS 
AFFAIRS; ACCOMPANIED BY STEVE WURTZ, DEPUTY ASSISTANT DIRECTOR, 
                       INSURANCE SERVICE

    Mr. Lastowka. Thank you, Mr. Chairman.
    Before I begin testimony, thank you very much for the 
research you must have done on this name. Not many people get 
it right on the first try.
    Chairman Craig. I struggle with correct pronunciations of 
names, and so my staff assists me phonetically. In that form I 
am a little handicapped.
    Mr. Lastowka. Thank you, Mr. Chairman, for the privilege of 
appearing today before this Committee. I do appreciate the 
opportunity to inform the Committee of what I believe was a 
very successful implementation of the Traumatic Injury 
Protection Program under the servicemembers group life 
insurance program, which I will henceforth refer to as TSGLI.
    I will summarize my testimony and would ask that the 
complete written testimony be included in the record.
    Chairman Craig. Without objection.
    Mr. Lastowka. TSGLI provides severely injured 
servicemembers who suffer certain losses as a direct result of 
traumatic injury with a monetary assistance to help them and 
their families through what is often a long, arduous, and 
financially difficult period of treatment and rehabilitation.
    On May 11, 2005, the President signed Public Law 109-13, 
which established the TSGLI program, effective December 1, 
2005. VA and the Department of Defense had less than 180 days 
to finalize the program design and certification process, 
publish regulations and provide outreach training to 
servicemembers and veterans. VA and DOD recognize the need to 
ensure that implementation was given the highest priority and 
was visible. Therefore, it was included as an initiative to the 
VA/DOD Joint Executive Council, and we have to regularly brief 
that Council on our progress.
    Our goal was to have the first TSGLI payments in the hands 
of eligible members prior to the December 2005 holidays. I am 
happy to report that we brought this to fruition, working with 
the staffs of the committees interested parties, such as 
Wounded Warriors. We were able to get input and VA published 
the TSGLI interim final regulation on December 22, and began 
payments simultaneously.
    TSGLI is automatic for all members who have regular SGLI 
coverage. Based on comments during the interim final 
regulation, we are looking to amend the final regulation to 
include a 2-year eligibility period from date of injury to date 
of loss.
    The law identifies some disabilities for which payments 
should be made, but also provides that the Secretary shall 
proscribe other conditions by regulation. The legislation 
recognized the severity of traumatic brain injury, which was a 
listed disability, and defined that severity as the loss of the 
ability to perform certain activities of daily living.
    In the regulations, we used the same definition of severity 
to define other severe injuries not usually covered by 
dismemberment insurance. The loss of the ability to perform in 
ADL is not a concept normally associated with traumatic injury 
insurance, but rather associated with long-term care. The ADL 
standards tend to be restrictive. Since TSGLI losses due to 
ADLs are meant to cover members, we believe that the intent of 
the law requires that ADL standards be set high so that members 
sustaining the loss equivalent in severity, and I will say 
emotionally, to an amputation or a similar loss would be met.
    Members must show through medical evidence that they were 
completely unable to perform certain activities without the 
assistance of other persons or equipment. The factor in setting 
the ADL standard high was that Congress contemplated that the 
TSGLI premium cover all claims that would be normally 
associated with a civilian population.
    As of Friday, September 1, we have paid 2,697 claims for a 
total of $166 million. The timeliness of claims payment is 
important because the program's primary goal is to get payments 
to eligible servicemembers as quickly as possible. Generally, 
we are taking between 50 and 60 days from the date of injury, 
not the date of loss, and this can be broken down, generally, 
to an average of 30 days for the member to submit the 
application. This may be because of ADLs that have to extend up 
to 30 days, or that the dismemberment does not take place 
immediately upon entrance into the hospital. After the 
application is admitted, generally the DOD is completing the 
application process within 14 to 21 days, and Prudential within 
2 to 3 days.
    We have conducted a review of denied claims. I am happy to 
say that the insurance personnel reviewing denied claims 
concluded that they would have not allowed one claim, based 
upon their review, that was denied by the military. We believe 
the outreach to reservists is now the greatest because they 
have less contact and there may be some confusion about whether 
it should cover non-combat injuries, which, in fact, the law 
does allow.
    Mr. Chairman, Committee Members, we believe the 
implementation has been successful. We believe the goals and 
the intent of the programs are being met. We will evaluate it 
in the coming year to see if there are other recommendations 
that we would make. Thank you, Sir.
    [The prepared statement of Mr. Lastowka follows:]

  Prepared Statement of Thomas Lastowka, Director, Insurance Service, 
    Veterans Benefits Administration, Department of Veterans Affairs

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to appear before you today to discuss the new 
Servicemembers' Group Life Insurance benefit, Traumatic Injury 
Protection, referred to as ``TSGLI.'' I will specifically address the 
implementation and management of the program, the benefits provided, 
and the impact on the lives of servicemembers.
    TSGLI is designed to provide severely injured servicemembers who 
suffer certain losses as a direct result of a traumatic injury with 
monetary assistance to help the servicemembers and their families 
through what is often a long and arduous treatment and rehabilitation 
period. In many instances, the family must physically relocate to be 
with the injured servicemember and provide needed emotional support 
during the treatment and recovery period. Relocating an entire family 
is disruptive and can result in economic hardship brought on by new 
and/or additional living expenses, and in some cases, the loss of a 
job. TSGLI helps to lessen that economic burden by providing immediate 
financial relief.
    TSGLI coverage is automatic for servicemembers who are insured 
under SGLI and cannot be declined separately. This criterion is normal 
commercial practice--the servicemember must have the basic insurance 
coverage in order to obtain a rider on that coverage. Servicemembers 
pay $1.00 per month for TSGLI coverage, in addition to their SGLI 
premium.
    TSGLI is broadly modeled after commercial Accidental Death and 
Dismemberment (AD&D) insurance coverage. AD&D coverage provides 
benefits if the insured suffers a physical loss (dismemberment) or dies 
due to an accident (accidental death). TSGLI is modeled after the 
``dismemberment'' portion of AD&D coverage, although it deviates in 
some respects from the commercial AD&D model to accommodate the unique 
needs of military personnel.
    In the legislation, Congress sets forth certain losses that must be 
covered by the TSGLI program as well as the range of payment amounts, 
from $25,000 to $100,000. The covered losses designated by statute are:
    <bullet> Total and permanent loss of sight.
    <bullet> Loss of a hand or foot by severance at or above the wrist 
or ankle.
    <bullet> Total and permanent loss of speech.
    <bullet> Total and permanent loss of hearing in both ears.
    <bullet> Loss of thumb and index finger of the same hand by 
severance at or above the metacarpophalangeal joints.
    <bullet> Quadriplegia, paraplegia, or hemiplegia.
    <bullet> Burns greater than second degree, covering 30 percent of 
the body or 30 percent of the face.
    <bullet> Coma or the inability to carry out the activities of daily 
living resulting from traumatic brain injury.
    The law also provides VA with the authority to prescribe by 
regulation other losses to be covered by TSGLI. Working with the 
Department of Defense (DOD), VA added a number of other losses to 
ensure the program covers as many deserving severely injured 
servicemembers as possible. The losses that VA added by regulation are:
    <bullet> Loss of both thumbs.
    <bullet> Loss of sight in one eye or loss of hearing in one ear.
    <bullet> Loss of the ability to perform of the activities of daily 
living (ADL) due to a loss not covered by the legislation.
    VA, in consultation with DOD, determined the payment amount for 
each scheduled loss and combinations of scheduled losses, within the 
range specified by statute. As a basic rule, if a servicemember suffers 
two or more losses, the payment is $100,000. For losses where time is 
the major factor, such as coma, brain injury, and limitations on 
activities of daily living (ADL), payments are based on the length of 
time the condition or limitation exists. For example, a servicemember 
in a coma is paid in $25,000 increments: $25,000 after 15 days in a 
coma; an additional $25,000 at 30 days; an additional $25,000 at 60 
days; and the last increment of $25,000 at 90 days. A Schedule of 
Losses providing the covered losses and the payment amounts is 
attached.
    Public Law 109-13, which established the TSGLI program, was signed 
into law on May 11, 2005, with an effective date of December 1, 2005. 
VA and DOD had less than 180 days to implement the program, including 
developing a certification process, publishing an interim final 
regulation, and conducting outreach to eligible members and veterans. 
VA published the TSGLI interim final regulation on December 22, 2005, 3 
weeks after the TSGLI program effective date of December 1, 2005, and 
began issuing payments simultaneously with publication of the rule. We 
are currently working on the final regulation. We received a comment 
from the Wounded Warrior Project suggesting that the interim final rule 
be amended to increase the number of days in which a scheduled loss 
must occur from 365 days to 2 years. We are evaluating this suggestion 
as we prepare the final rule.
    For a servicemember to be eligible for a TSGLI payment, the 
following criteria must be met:
    1. The servicemember must be covered by SGLI.
    2. The servicemember must suffer a loss that is a direct result of 
a traumatic injury.
    3. The servicemember must suffer the traumatic injury before 
midnight on the date of the termination of the servicemember's duty 
status in the uniformed services that establishes eligibility for SGLI.
    4. Under the interim final rule, the servicemember must suffer the 
loss within 365 days of the traumatic injury.
    5. Under the interim final regulation, the servicemember must 
survive for at least seven full days from the date of the traumatic 
injury.
    Public Law 109-13 also provided TSGLI coverage retroactively to 
servicemembers who experienced a traumatic injury between October 7, 
2001, and the effective date of the statute, i.e., December 1, 2005, if 
their qualifying loss was a direct result of injuries incurred in 
Operation Enduring Freedom (OEF) or Operation Iraqi Freedom (OIF). 
Public Law 109-233 repealed this provision and instead provides 
retroactive TSGLI coverage for servicemembers who during the period 
beginning on October 7, 2001, and ending at the close of November 30, 
2005, sustained a traumatic injury resulting in a scheduled loss if 
that loss was a direct result of a traumatic injury incurred in the 
theater of operations for OEF or OIF.
    In determining the regulatory exclusions to coverage, we looked 
both to the commercial model and the plain language of the statute. We 
excluded injuries that result from illegal behavior by the 
servicemember or self-inflicted trauma. TSGLI is not payable for 
injuries caused by the following:
    1. Attempted suicide.
    2. Intentionally self-inflicted injury or an attempt to inflict 
such injury.
    3. Medical or surgical treatment of an illness or disease.
    4. The servicemembers' willful use of an illegal or controlled 
substance, unless administered or consumed on the advice of a medical 
doctor.
    In addition, TSGLI does not cover injuries sustained while 
committing, or attempting to commit, a felony. Nor does it cover 
illnesses or diseases, physical or mental in nature, other than a 
pyogenic infection (pus forming, often secondary to a wound) or 
physical illness or disease caused by a biological, chemical, or 
radiological weapon, or accidental ingestion of a contaminated 
substance.
    TSGLI allows payments for scheduled losses resulting from multiple, 
unrelated traumatic events, up to $100,000. However, we do not believe 
that Congress intended for a servicemember to receive more than the 
statutory maximum TSGLI benefit of $100,000 as a result of scheduled 
losses due to each of several traumatic events occurring within a short 
period of time. Also, VA must manage the TSGLI program on the basis of 
sound actuarial principles. Congress has expressed its understanding 
that the premium for TSGLI coverage will be minimal. In accordance with 
that charge, we have concluded that, in the case of multiple traumatic 
events occurring within a 7-day period, it is appropriate to limit 
recovery to the statutory maximum allowed for a single traumatic event, 
regardless of whether the losses come from multiple traumatic events 
within a 7-day period. We have concluded that a period of 7 days is 
appropriate to properly balance the need for actuarial soundness and 
the interests of providing adequate coverage for traumatic events 
separated by a greater amount of time. A member could incur a second 
scheduled loss virtually simultaneously with the initial scheduled 
loss. If the benefit for the initial scheduled loss were for $100,000, 
we do not believe Congress intended an additional payment, beyond the 
maximum provided by law.
    VA has developed procedures for filing and processing an 
application for benefits that facilitate a fast and thorough review by 
the uniformed services. Each uniformed service has an identified office 
to handle TSGLI claims. VA and DOD jointly developed a claims procedure 
and certification form. The procedure is as follows:
    1. The servicemember obtains a copy of the TSGLI Certification of 
Traumatic Injury Protection Form. It has three parts, A, B, and C.
    2. The servicemember completes Part A with basic identifying 
information and banking information if payment by electronic funds 
transfer is elected. Part A is submitted to the servicemember's 
uniformed service office.
    3. The servicemember gives Part B to a medical professional to 
document the qualifying loss. The medical professional returns Part B 
to the servicemember or directly to the uniformed service office 
handling the servicemember's TSGLI claim.
    4. The uniformed service office reviews the claim and makes the 
decision on whether the servicemember is eligible for the benefit. The 
decision is documented on Part C of the TSGLI Certification Form.
    5. The uniformed service office sends the entire form to Office of 
Servicemembers' Group Life Insurance (OSGLI) to make the benefit 
payment and advise the servicemember of the award, or send the 
servicemember a letter informing the servicemember of the denial.
    The servicemember has the right to appeal the TSGLI decision. All 
appeals, except those based on SGLI coverage, go through a DOD appeals 
process. Appeals related to the servicemember's SGLI coverage are 
processed by OSGLI.
    One of VA's main roles in the implementation of TSGLI is the 
development of procedures and issuance of guidance for handling claims 
to the branches of service. A detailed TSGLI Procedural Guide was 
developed for all uniformed service TSGLI points of contact. The guide 
explains all aspects of TSGLI, including premiums, coverage, 
exclusions, and other eligibility criteria. It also provides the 
uniformed service contacts with information about the medical standards 
for covered losses and how to complete the TSGLI Certification Form.
    In accordance with the legislation, VA has taken the lead on 
decisions relating to program policies and standards. On issues of 
disagreement on policies affecting certification decisions, VA makes 
the final determination with input from all parties. In contrast, VA 
has left the internal procedures for claims processing to the uniformed 
services to handle as they see fit. This mirrors the process for 
handling SGLI death benefit claims. VA and OSGLI have provided training 
to the branches of the uniformed services.
    The Under Secretary for Benefits has directed all VA Regional 
Office Seamless Transition Coordinators to personally contact severely 
injured veterans from OEF and OIF to inform them about the TSGLI 
benefit. VA and OSGLI continue to identify potentially eligible 
servicemembers through outreach efforts to disabled veterans and 
analysis of news stories naming injured servicemembers. Names of 
potentially eligible servicemembers are provided to the uniformed 
services' TSGLI office for outreach.
    The ADL associated with TSGLI were identified in the program's 
enacting legislation. The activities are bathing, dressing, eating, 
toileting, continence, and transferring. To qualify for a benefit under 
TSGLI involving ADL, a servicemember must lose the ability to perform 
two of these six ADL for specified periods of time. For brain injuries, 
a servicemember must prove inability to perform two of these six 
activities for a minimum of 15 days up to a maximum of 90 days. For 
other traumatic injuries not related to a brain injury, a servicemember 
must prove inability to perform two of these six activities for a 
minimum of 30 days up to a maximum of 120 days.
    In the commercial insurance industry, AD&D policies do not cover 
the loss of the ability to perform ADL. Therefore, to obtain a model 
for use in the TSGLI program as the law required, we looked to long-
term care insurance standards. In long-term care insurance, the 
policies require that the insured be unable to perform ADL for an 
extended period of time in order to qualify for coverage. In 
recognition of the intent of Congress that TSGLI premiums remain low, 
it follows that TSGLI ADL standards must be restrictive so that 
premiums can remain at reasonable rate. In addition, we believe that 
ADL standards should be set at a high enough level so that only 
servicemembers sustaining a loss equal in severity to an amputation or 
other loss covered by the TSGLI program qualify for benefits.
    Therefore, the TSGLI Program requires that a servicemember be 
``unable to perform the activities of daily living'' for a period of 
time ranging from 15 consecutive days to 120 consecutive days. Also, a 
servicemember must show through medical evidence that they are 
completely unable to perform an activity without assistance of another 
person, adaptive equipment, or accommodating behavior.
    There are some indications that servicemembers and physicians do 
not fully understand these ADL standards. The uniformed services are 
working to educate military medical professionals through onsite 
training, materials, and attendance at conferences. We believe 
continuing education will increase the understanding of the ADL 
standards and improve the quality of claims.
    It is often difficult to establish entitlement to retroactive TSGLI 
benefits based on a loss of an ADL. An assessment of the 
servicemember's current medical condition may not establish the date 
from which they were first unable to perform an ADL. We understand it 
can be difficult to contact the original treating physician or obtain 
documentation of past treatment. In spite of this, ADL remains the most 
frequent loss paid for both retroactive and post-December 1 claims.
    In these types of cases, the uniformed services are using the same 
procedure to review the medical evidence. The uniformed services will 
contact the certifying medical professional and provide them with an 
explanation of the ADL standards or other loss standards. In many 
cases, the medical professional revises his/her initial comments. If 
the medical professional still stands by the initial statement, the 
uniformed service staff has a military medical physician review the 
claim and determine if the medical evidence supports the medical 
professional's statement. If so, the claim is certified payable, and if 
not, it is certified denied.
    I would now like to provide you with some current statistics on 
TSGLI claims. The average amount of a TSGLI payment is $62,000. As of 
Friday, August 25, 2006, the TSGLI Program has paid:
    <bullet> 2,261 retroactive claims totaling of over $143.5 million.
    <bullet> 403 claims since the effective date (December 1, 2005) for 
a total of over $21 million.
    In the past 2 months, we have seen a decrease in retroactive claims 
and an increase in post-December 1, 2005, claims. This is a logical 
trend that we expect to continue.
    Claims for losses sustained on or after December 1, 2005, are paid 
on average within 50 to 60 days of injury. This time period is broken 
down as follows:
    <bullet> 30 days for the servicemember to be stabilized and file an 
application.
    <bullet> 14-21 days for the uniformed service's review.
    <bullet> 2.3 days, on average, for payment processing at OSGLI.
    As of Friday, August 25, 2006, the TSGLI Program has denied 1,601 
retroactive claims and 248 post-December 1 claims. Earlier this summer, 
VA's Insurance Service staff reviewed a sample of denied claims and 
agreed with the decisions rendered by the uniformed services on these 
claims.
    The two main reasons for denial were the medical evidence did not 
support the claimed loss, or the servicemember did not claim or have 
sufficient ADL limitations to qualify for the benefit. These denial 
reasons point to the fact that we need to continue educating physicians 
and potential claimants on the eligibility criteria for TSGLI, 
especially based on ADL. In addition, the cases reviewed showed no 
pattern based on the medical facility where the servicemember was 
treated or based on the medical doctor certifying the claim.
    We plan to conduct another review of denied claims next year after 
the new Certification Form has been in circulation for a number of 
months. We believe the new form, which has been enhanced to include 
questions pertaining to the medical standards of the program and an ADL 
questionnaire, will cut down on claims from clearly ineligible 
servicemembers.
    As we approach the 1-year mark since the effective date of the 
program, we are planning a comprehensive evaluation of the TSGLI 
Program. This evaluation will include a review of current procedures at 
the uniformed services TSGLI offices as well as an analysis of program 
standards and policies. Through this evaluation, we hope to be able to 
identify areas of improvement.
    We are also considering whether to provide by regulation a time 
limitation on filing a claim for TSGLI. Currently, the program has no 
time limit for filing claims. This is problematic as it represents a 
liability against the program that we are unable to anticipate and 
budget for actuarially. In addition, with no claim filing time limit, 
servicemembers are able to apply years from now for the benefit and 
will face the difficulty of obtaining medical evidence proving the loss 
dates back to a traumatic injury that occurred in service.
    Mr. Chairman and Committee Members, it has been an honor and 
privilege to be involved in the implementation of the TSGLI benefit. I 
would like to recognize and thank the Committee for your significant 
efforts in creating this benefit for our Nation's servicemembers. I am 
happy to report that the implementation of TSGLI has been extremely 
successful. I believe the goals and intent of the program are being 
met. We will continue to evaluate the program to assure that it 
operates to the highest standards so that our servicemembers are well 
served.

                        TSGLI Schedule of Losses
------------------------------------------------------------------------
                                           Then the amount that will be
             If the loss is                          paid is:
------------------------------------------------------------------------
1. Total and permanent loss of sight in  $100,000
 both eyes.
2. Total and permanent loss of hearing   $100,000
 in both ears.
3. Loss of both hands at or above wrist  $100,000
4. Loss of both feet at or above ankle.  $100,000
5. Quadriplegia........................  $100,000
6. Hemiplegia..........................  $100,000
7. Paraplegia..........................  $100,000
8. 3rd degree or worse burns, covering   $100,000
 30 percent of the body or 30 percent
 of the face.
9. Loss of one hand at or above wrist    $100,000.
 and one foot at or above ankle.
10. Loss of one hand at or above wrist   $100,000
 and total and permanent loss of sight
 in one eye.
11. Loss of one foot at or above ankle   $100,000
 and total and permanent loss of sight
 in one eye.
12. Total and permanent loss of speech   $75,000
 and total and permanent loss of
 hearing in one ear.
13. Loss of one hand at or above wrist   $100,000
 and total and permanent loss of speech.
14. Loss of one hand at or above wrist   $75,000
 and total and permanent loss of
 hearing in one ear.
15. Loss of one hand at or above wrist   $100,000
 and loss of thumb and index finger of
 other hand.
16. Loss of one foot at or above ankle   $100,000
 and total and permanent loss of speech.
17. Loss of one foot at or above ankle   $75,000
 and total and permanent loss of
 hearing in one ear.
18. Loss of one foot at or above ankle   $100,000
 and loss of thumb and index finger of
 same hand.
19. Total and permanent loss of sight    $100,000
 in one eye and total and permanent
 loss of speech.
20. Total and permanent loss of sight    $75,000
 in one eye and total and permanent
 loss of hearing in one ear.
21. Total and permanent loss of sight    $100,000
 in one eye and loss of thumb and index
 finger of same hand.
22. Total and permanent loss of thumb    $100,000
 of both hands, regardless of the loss
 of any other digits.
23. Total and permanent loss of speech   $100,000
 and loss of thumb and index finger of
 same hand.
24. Total and permanent loss of hearing  $75,000
 in one ear and loss of thumb and index
 finger of same hand.
25. Loss of one hand at or above wrist   $50,000 for loss of hand plus
 and coma.                                the amount paid for coma as
                                          noted in Item 37 of this
                                          schedule up to a combined
                                          maximum of $100,000.
26. Loss of one foot at or above ankle   $50,000 for loss of foot plus
 and coma.                                the amount paid for coma as
                                          noted in Item 37 of this
                                          schedule up to a combined
                                          maximum of $100,000.
27. Total and permanent loss of speech   $50,000 for total and permanent
 and coma.                                loss of speech plus the amount
                                          paid for coma as noted in Item
                                          37 of this schedule up to a
                                          combined maximum of $100,000.
28. Total and permanent loss of sight    $50,000 for total and permanent
 in one eye and coma.                     loss of sight in one eye plus
                                          the amount paid for coma as
                                          noted in Item 37 of this
                                          schedule up to a combined
                                          maximum of $100,000.
29. Total and permanent loss of hearing  $25,000 for total and permanent
 in one ear and coma.                     loss of hearing in one ear
                                          plus the amount paid for coma
                                          as noted in Item 37 of this
                                          schedule up to a combined
                                          maximum of $100,000.
30. Loss of thumb and index finger of    $50,000 for loss of thumb and
 same hand and coma.                      index finger of the same hand
                                          plus the amount paid for coma
                                          as noted in Item 37 of this
                                          schedule up to a combined
                                          maximum of $100,000.
31. Total and permanent loss of sight    $50,000 for loss of sight in
 in one eye and inability to carry out    one eye plus the amount paid
 activities of daily living due to        for the inability to carry out
 traumatic brain injury.                  activities of daily living due
                                          to traumatic brain injury as
                                          noted in Item 37 of this
                                          schedule up to a combined
                                          maximum of $100,000.
32. Loss of one hand at or above wrist   $50,000 for loss of hand plus
 and inability to carry out activities    the amount paid for the
 of daily living due to traumatic brain   inability to carry out
 injury.                                  activities of daily living due
                                          to traumatic brain injury as
                                          noted in Item 37 of this
                                          schedule up to a combined
                                          maximum of $100,000.
33. Loss of one foot at or above ankle   $50,000 for loss of foot plus
 and inability to carry out activities    the amount paid for the
 of daily living due to traumatic brain   inability to carry out
 injury.                                  activities of daily living due
                                          to traumatic brain injury as
                                          noted in Item 37 of this
                                          schedule up to a combined
                                          maximum of $100,000.
34. Loss of thumb and index finger of    $50,000 for loss of thumb and
 same hand and inability to carry out     index finger plus the amount
 activities of daily living due to        paid for the inability to
 traumatic brain injury.                  carry out activities of daily
                                          living due to traumatic brain
                                          injury as noted in Item 37 of
                                          this schedule up to a combined
                                          maximum of $100,000.
35. Total and permanent loss of hearing  $25,000 for total and permanent
 in one ear and inability to carry out    loss of hearing in one ear
 activities of daily living due to        plus the amount paid for the
 traumatic brain injury.                  inability to carry out
                                          activities of daily living due
                                          to traumatic brain injury as
                                          noted in Item 37 of this
                                          schedule up to a combined
                                          maximum of $100,000.
36. Total and permanent loss of speech   $50,000 for total and permanent
 and inability to carry out activities    loss of speech plus the amount
 of daily living due to traumatic brain   paid for the inability to
 injury.                                  carry out activities of daily
                                          living due to traumatic brain
                                          injury as noted in Item 37of
                                          this schedule up to a combined
                                          maximum of $100,000.
37. Coma from traumatic injury and/or    At 15th consecutive day in a
 the inability to carry out activities    coma, and/or the inability to
 of daily living due to traumatic brain   carry out activities of daily
 injury.                                  living--$25,000.
Note 1: Benefits will not be paid under  At 30th consecutive day in a
 this schedule for concurrent             coma, and/or the inability to
 conditions of coma and traumatic brain   carry out activities of daily
 injury.                                  living--Additional $25,000.
Note 2: Duration of coma includes the    At 60th consecutive day in a
 day of onset of the coma and the day     coma, and/or the inability to
 when the member recovers from coma.      carry out activities of daily
Note 3: Duration of the inability to      living--Additional $25,000.
 carry out activities of daily living    At 90th consecutive day in a
 due to traumatic brain injury includes   coma, and/or the inability to
 the day of the onset of the inability    carry out activities of daily
 to carry out activities of daily         living--Additional $25,000.
 living and the day the member once
 again can carry out activities of
 daily living.
Benefits can be paid for both
 conditions only if experienced
 consecutively, not concurrently.
38. Total and permanent loss of speech.  $50,000
39. Loss of one hand at or above wrist.  $50,000
40. Loss of one foot at or above ankle.  $50,000
41. Total and permanent loss of sight    $50,000
 in one eye.
42. Loss of thumb and index finger of    $50,000
 same hand.
43. Total and permanent loss of hearing  $25,000
 in one ear.
44. The inability to carry out           At 30th consecutive day of the
 activities of daily living due to loss   inability to carry out
 directly resulting from a traumatic      activities of daily living--
 injury other than an injury to the       $25,000.
 brain.                                  At 60th consecutive day of the
Note: Duration of the inability to        inability to carry out of
 carry out activities of daily living     activities of daily living--
 includes the day of onset of the         Additional $25,000.
 inability to carry out activities of    At 90th consecutive day of the
 daily living and the day when the        inability to carry out
 member can once again carry out          activities of daily living--
 activities of daily living.              Additional $25,000.
                                         At 120th consecutive day of the
                                          inability to carry out
                                          activities of daily living--
                                          Additional $25,000.
------------------------------------------------------------------------

    Chairman Craig. Thank you very much, Tom.
    Let me first recognize Senator Thune who has joined us. He 
is another original cosponsor of the legislation.
    John, why don't we allow you any opening comments you want 
to make with the questions you would ask at the time that we 
get there. Is that OK?
    Senator Thune. That is fine.
    Chairman Craig. Let me now proceed with questions, and then 
we will go through in that order, because I know that Senator 
Akaka needs to go to another hearing, so we will get to you 
quickly, Danny.
    Let me ask generic questions of all of you who are before 
us, because clearly we are in that stage of looking at it, 
wanting to know if it is working the way it was intended to. I 
have laid out the three principles that I thought were 
critically important in the concept of the legislation and the 
legislative intent before.
    Right now, payments are being received within 50 to 60 days 
of when the traumatic injury occurs. Do you expect processing 
time to improve as the military services and the VA gain more 
experience with this benefit? This question is to both of you, 
Mike and Tom, and also to you, Steve, if you wish to 
participate.
    Mr. Dominguez. Sir, I would say yes. As we get more 
experience, as we streamline the process, processing time 
should improve. There is a big piece in the front end that is 
under the control of medical personnel. As Tom was saying, you 
may not suffer a loss because the medicine is so good and these 
guys work so hard to restore people to health that from the 
time of injury to the time that they actually incur a covered 
loss could be a long time.
    Also, in the initial stages, this is not a first priority 
for many families. So, that time up to when they get the 
certification--they fill out the form--there are a lot of 
things going on in there. We have advocates, patient advocates 
and case managers, working with the family. When they are ready 
to move on that, they will be moving. The two to 3 weeks after 
that we need to scrunch down in the DOD.
    I am very pleased with how fast the Veterans' 
Administration processes it once we get it to them.
    Chairman Craig. Tom, any comment on that?
    Mr. Lastowka. Similarly, Sir, I think we generally defer to 
the medical community and we have VA and DOD personnel at 
places like Bethesda and Walter Reed. We defer to their 
judgment on when the families should be approached.
    I think that is one place we can look at as we review our 
first year. We will be looking at that. The adjudicative 
process--the Army is currently taking, for instance, 12 days. I 
think that is a reasonable time given the adjudicative process 
we ask them to do. Certainly, the processing by Prudential in 
the 3 to 4 days is reasonable.
    So, I think there are opportunities. I could not identify 
what they are right now. I do believe, since we have generally 
measured from date of injury to date of payment, that 50 to 60 
days processing time is probably longer than the date of loss 
to the date of payment, although I do not have specific 
statistics on that.
    Chairman Craig. Certainly, for those of us looking in 
instead of those who are there, hands-on--medical professionals 
and families and certification, 50 to 60 days processing time 
appears and sounds to be, to me, a long time.
    Now, has a target processing time been established, and is 
there a private sector model to use as a benchmark? How are you 
examining that as it relates to narrowing that window, if 
possible?
    Mr. Lastowka. At the moment, I am not aware of a private 
sector benchmark for, I will say, date of injury to date of 
adjudication of, basically, long-term care insurance. The 
Insurance Service, generally, we look to customer service and 
we measure customer complaints. I am not aware of servicemember 
complaints on the time window. So, that would tend to make me 
feel good about that.
    Again, I recognize with you that there is some control 
between that 30 and 60 days that we may be able to identify, 
and we will look to do that as we start reviewing the program 
as the first anniversary date comes up.
    Chairman Craig. OK.
    Mr. Dominguez. Senator, if I might. The average includes 
things that are quite extraordinary, like the 1 year it took 
because the medical personnel were trying to save the leg of 
this injured servicemember. So that goes into these averages.
    The loss of activities of daily living require the 
physicians to observe for a period of time before they state 
that this has been a covered or eligible loss. So that goes in. 
So, when we look at these benchmarks, we really need to look at 
them in that front end piece by the nature of the injury.
    Clearly, as I said, I want to get better at the middle time 
where we are doing the adjudication certification process and 
streamline that, and we will be aggressive in doing that.
    Chairman Craig. Thank you very much. Let me turn to Senator 
Akaka.
    Danny.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Lastowka, what would the impact on your office be if 
the law was amended to retroactively make all traumatically 
injured servicemembers eligible for traumatic injury 
protection?
    Mr. Lastowka. Sir, I am sorry, I do not understand----
    Senator Akaka. What would be the impact on your office if 
the law was amended to retroactively make all traumatically 
injured servicemembers eligible for traumatic injury 
protection?
    Mr. Lastowka. I think the impact would be more on the 
program than the office, and that would be financial, because 
obviously nobody has been paying premiums, if you go 
retroactive to the first Persian Gulf War or something like 
that.
    I would have to defer to DOD because that would be their 
appropriative funds. Certainly, it would not impact the TSGLI 
or SGLI funding because the retroactive is paid for out of 
appropriated funds.
    One impact I could see as a difficulty would be to 
adjudicate such claims several years after things had taken 
place. The difficulty to get documentation depends on how far 
back that retroactive period would go. If it went back 10 
years, 20 years, just the ability to determine the condition of 
servicemembers within a year or two of their traumatic injury 
would be very difficult.
    Senator Akaka. What kind of difficulty would there be in 
reaching back records to make that determination of 
eligibility?
    Mr. Lastowka. A lot of the disabilities, including those 
that depend on examination of the activities of daily living, I 
do not think that you would find that documentation existing in 
medical records. I do not think there would be many treating 
physicians that are no longer living. So, to be able to compile 
what activities of daily living a person was or was not able to 
perform 10 years ago, I do not think you would necessarily find 
that in the contemporaneous medical records.
    Although I certainly have not looked at that. Certainly, in 
the commercial model, with our recommendation to go to the 2 
years, we would be at close to the commercial limit of what 
they normally would do under an insurance program.
    Senator Akaka. Mr. Dominguez, is there an inequity among 
our wounded servicemembers regarding the application of 
retroactive payments only to those injured during OIF and OEF?
    Mr. Dominguez. Senator, I would say no. From the following 
point of view that the program that is set up is an insurance 
program, where you pay a dollar to buy this insurance. And 
then, if you are subsequently injured then you get this 
coverage.
    The Congress extended or made that retroactive without 
anyone having paid those premiums without having purchased the 
insurance because of the compelling and unique circumstance of 
being at war. I think that was a noble and a just thing to do 
for the people who were exposed to that very unique risk. And 
it was their sacrifice in their wartime injuries that, as 
Senator Craig mentioned earlier, brought this issue to the 
fore.
    So, I am very comfortable with the distinction made by the 
Congress in the way it structured the retroactive payments.
    Senator Akaka. Thank you very much, Mr. Chairman. My time 
is almost up.
    Chairman Craig. Thank you, Danny.
    Senator Murray.
    Senator Murray. Yes. In my opening statement I talked about 
how early detection and screening for traumatic brain injury 
and PTSD will decrease the disabilities of returning 
servicemembers. So, I want to go back and ask why we are not 
having mandatory screening for both brain injury and PTSD.
    Mr. Dominguez. Senator, I am, unfortunately, unprepared to 
answer that question today. I would like to take that for the 
record.
    I have very high confidence in the quality of medical care 
being delivered to our men and women in uniform. I think that 
the attention that is focused on that and the energy behind it 
is really quite extraordinary. I do not think that I could sit 
here and say that our people need something that is not being 
delivered. My bias would be that if it is necessary, those 
people in the hospitals are doing it and taking care of people.
    On the mandatory screening for everyone, that's a different 
issue. So, I would like to consult with the physicians and get 
you an answer.
    Senator Murray. If you could check on that, and I would 
also like to know how a mandatory TBI screening upon separation 
would affect this benefit. If you could do some research and 
get back to me on that, I would appreciate it.
    Mr. Dominguez. Yes, Ma'am. I would be happy to do that.
    Senator Murray. All right.
    This legislation was meant to provide this benefit to those 
with traumatic injuries. Is there anybody out there with 
traumatic injuries that we are missing?
    Mr. Lastowka. I think VA has conducted extensive outreach, 
especially at the direction of the Under Secretary for Benefits 
under our Seamless Transition Program. He asked that we 
personally contact any individual that had been identified as 
severely disabled, but I would never say that anything was 100 
percent perfect.
    Senator Murray. Right.
    Mr. Lastowka. We do have some concerns, especially where 
National Guardsmen and reservists are concerned.
    Senator Murray. Yes. That was my specific question. I 
wanted to find out what you were doing for Guard and Reserve 
members. Are you contacting their families so that they know 
about this benefit? How are we getting the word out to them?
    Mr. Lastowka. We had a training session, Ma'am, in which we 
participated with the veterans benefits coordinator for every 
State and National Guard. We instructed them in that program. 
We are using publications that cater to the military to place 
articles concerning very specifically the fact that it is 24/7, 
not limited to combat. That is the direction that we are going.
    If there is a population that we are more likely to miss, 
it will be those people not on active duty.
    Senator Murray. Right. I would just really urge you to 
focus on the Guard and the Reserve, because if anybody is going 
to be missed, they will be the ones. And continue to work those 
channels and any others you can to make sure that they and 
their families know about this.
    Mr. Dominguez. And that, right now, is our focus, Ma'am.
    Senator Murray. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Craig. Patty, thank you very much.
    Now, let me turn to Senator Thune. Again, John, thank you 
for joining us.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and thank you for 
holding this important hearing to review the effects of the 
legislation that was enacted to benefit the soldiers who have 
suffered severe wounds in the line of duty on the War on 
Terror. I want to welcome our panelists here today and thank 
you for your oversight of this important program.
    I particularly want to recognize Sergeant Keith, who 
represents the very best--the American ideals of patriotism, 
service, and sacrifice. He is certainly an inspiration to all 
of us. Thank you for your service.
    I also want to extend a profound debt of gratitude to all 
of the veterans who have put themselves in harm's way for our 
country, most particularly to those who have been severely 
wounded as they faced the enemy.
    I was very happy, Mr. Chairman, to cosponsor this measure, 
and am, obviously, as you are, very interested in learning how 
our efforts have played out. To date, there are 11 South Dakota 
servicemembers who have taken advantage of this benefit, and 
over 2,500 nationwide. Obviously, this is not a partisan issue. 
No one can disagree that we have to do everything within our 
power as a government to ensure that these brave soldiers who 
have sacrificed so much receive every bit of help that they 
require.
    So, again, I want to thank you for holding this hearing and 
I appreciate the testimony of our witnesses today.
    Mr. Chairman, I would simply like to follow up with a 
question that has sort of been asked in different ways today 
but I think it is really important, in terms of a benefit like 
this and just making people aware that it exists and I think 
the key to measuring whether or not we have been successful in 
achieving what Congress has set out to do is being able to 
ascertain whether or not potential beneficiaries know that 
benefit exists and are able to take full advantage of it.
    From what I understand, the outreach efforts that are being 
made to potential beneficiaries are primarily based on news 
stories that name soldiers who have been severely injured in 
OIF or OEF. And I guess the question, again, is--it kind of 
ties into Senator Murray's line of questioning, too. Is it 
possible that there are potential beneficiaries that are 
overlooked by the approach that is being used, and are there 
ways that we can cast a wider net other than simply researching 
news stories, in terms of finding out about people who might be 
able to benefit from this program?
    Mr. Lastowka. Senator, it is true that we do research every 
news story that talks about a disabled soldier who may not have 
gotten the benefit, but there are other efforts that we do use.
    In the insurance program, we personally contact every 
military member who is being discharged with a service rating 
of 50 percent or greater. Our primary reason for beginning that 
personal contact was to inform them of the SGLI extension for 
free insurance for disabled members.
    Obviously, the veterans that we are talking to, the 
veterans who have been discharged, are a target group for 
TSGLI. So we will also speak to them about TSGLI. I mentioned 
that the Under Secretary had required that every regional 
office speak to every identified seriously disabled, under the 
Seamless Transition Program, to be contacted.
    Of course, most of our beneficiaries are in the military. 
They are on active duty, often showing up at Walter Reed and 
Bethesda, where we are staffed with people that are very 
knowledgeable about the program. As I mentioned to Senator 
Murray, our concern right now is primarily to those people who 
are not on active duty that may be injured not as a result of 
active duty, but are paying that premium which would cover 
their non-active duty case and that is where we are focusing, I 
will say, publicity and education efforts.
    Mr. Dominguez. Senator, if I might add. I agree that the 
tough problem will be the Guardsmen and the reservists who are 
injured in their civilian status. We can work that through the 
chain of command. We are working that through the chain of 
command. If someone stops showing up at your selected Reserve 
unit for drills, you go find out why. If it is because they 
have been injured, then you know that they are eligible for 
TSGLI.
    The chain of command is important. We use that in the 
hospitals. In preparation of this hearing, I checked and 
confirmed that there is a human being in every military 
treatment facility assigned to every patient with a mission of 
making sure that patient knows if they are eligible for TSGLI 
and to help them fill out the form.
    So, as we move prospectively, the chance of us missing 
someone diminishes. So, to check on the awareness of this, we 
are incorporating questions about this benefit into our status 
of forces surveys that we do every year to ask questions and 
get a sense of what the force is thinking or feeling. So, this 
benefit will be in that survey this year.
    Senator Thune. And my understanding, too, is that, in the 
prepared DOD statement, Under Secretary, that there have been 
like 2,000 denials of the benefit. I know denials are 
inherently necessary as part of the program, but are there 
clarifications that we should be making to the law to ensure 
that the possibility of a mistake in denial is lowered?
    Mr. Dominguez. Sir, let me leap into that first, and then 
defer to my VA colleagues. I wanted to say, as I mentioned 
earlier to Senator Craig, this is a superbly crafted piece of 
legislation. It allows the Veterans' Administration and the DOD 
pretty much wide latitude to fix any problems that we see. So, 
I do not see a need for any legislation.
    Tom can speak more eloquently to the nature of the denials, 
but on the positive side, I just told you about the patient 
advocates assigned to every patient in these military treatment 
facilities. Were I one of those people, I would make sure that 
we filled in an application and sent it in regardless of 
whether I thought it met the criteria. I would let the system 
decide. I cannot say that is what is happening, but I know that 
is what I would be doing.
    Mr. Lastowka. Yes, Senator. On the retroactive period, 
there was a lot of publicity about TSGLI and potential 
eligibility even before we established the criteria. I think 
that, like a lot of insurance policies, people do not 
necessarily know what they contain until they need them.
    I think the large number of denials, honestly, were because 
of the successful outreach effort where people submitted claims 
because they were hospitalized and injured while in the 
military and people were not sure what the criteria were.
    Just like Mr. Dominguez says, I would rather have 1,000 
people apply for the benefit and be denied than to have two or 
three not apply, and therefore not get the benefit. I think as 
general education goes, that may impact the denial rate. On the 
appeals, we know that there have been, I think, 1,400 
approximate appeals of decisions made by DOD, and 17 of them 
were reversed.
    And, as I said, when VA personnel reviewed denied claims we 
would not have reversed even one of the claims that we 
reviewed. So, I think the denials are legitimate. I think, as 
you look across the branches of service, the consistency of the 
denial rate across branches of services all argue to the fact 
that we are administering the law as you intended. If anything, 
it is because people do want to explore whether or not they 
might be eligible for a benefit, but those people that you 
intended to get the benefit, I believe, are getting that 
benefit.
    Senator Thune. Thank you, Mr. Chairman.
    Chairman Craig. Thank you, John.
    Let me continue that line of questioning. While I 
appreciate you recognizing that, when we crafted this 
legislation, we gave you flexibility because it was important 
that it get defined properly to fit. I think Congress knew 
where we wanted to go, but we did not know quite how to get 
there. That is where we relied on the experts, the medical 
professionals, to shape it in. That is why you were given that 
flexibility.
    With that understanding, from your testimony I gather that 
there is a considerable complexity in resolving some claims for 
payment. In particular, claims based on limitations of ADL, or 
activities of daily living. How is that problem being addressed 
would be my first question. Is there more training of medical 
professionals responsible for documenting losses of ADLs? Is 
that an answer? Is there a quality review process to determine 
whether ADL criteria are consistently and accurately applied?
    If you will explore that area with the Committee and for 
the record I think it would be greatly appreciated.
    Mr. Lastowka. Senator, Mr. Chairman, obviously, to a 
layperson, it is easier to understand the concept of an 
amputation than it is to understand the concept of an activity 
of daily living.
    Chairman Craig. Yes.
    Mr. Lastowka. And so, as you look at that, it is more 
complexly defined, although it is defined. So, we have focused 
a lot of time and effort in developing training and guidelines. 
The guidelines, I believe, are quite objective.
    We, with DOD, are developing what we believe to be clear 
standards to determine ADL and the loss there, and to 
communicate them. We have been holding, through August, weekly 
conferences with DOD, people in charge of the program, and, I 
will say, their claims examiners, to define what we mean.
    We have recently expanded the TSGLI certification forms to 
include separate questionnaires for medical professionals to 
use that would provide very detailed information pertinent to 
the ADL losses. One of our concerns is that we believe the 
Congressional intent was that this program be for severely 
disabled personnel, the equivalent of Sergeant Keith, the 
multiple amputation, the paraplegia. We do not want to diminish 
that with a standard--I do not want to diminish anyone's claim, 
but we have had things such as twisted ankle. We had torn 
rotator cuff, broken jaw--people claiming that they could not 
perform activities of daily living. We do not believe that was 
the intent.
    Now, I do not say that is the vast majority, but I think 
the vast majority----
    Chairman Craig. No, I believe, for the Committee--at least 
for this Member of the Committee--that is a reasonable 
interpretation. It was not to be a broad net. It was to be a 
specific net for those who were by, what we think, a reasonably 
clear definition as traumatically injured.
    Mr. Lastowka. I think we and DOD arrived at that, certainly 
our commercial partners, OSGLI, through Prudential, would 
concur in that. It is something, Sir, that we will look at. We 
are planning to do a complete program review shortly after the 
anniversary date in order to address all of your issues.
    Mr. Dominguez. Sir, if I might, I would like to compliment 
the VA, my VA colleagues here, on the really aggressive and 
effective workshops and training and weekly discussions. We 
connect the people who are doing this work together and work 
through those things, including bringing these people together 
and running through examples of the problems.
    And that has been the initiative of the Veterans Affairs 
Department and, really, my hat is off to them for the work they 
have done to make this standard across services so that we 
can--we have high confidence that a determination in the Air 
Force would be the same determination reached in the Marine 
Corps.
    Mr. Lastowka. Sir, if I could add one more thing.
    As I talked about the layman understanding versus, I will 
say, the claims examiner, if it was truly confusing to the 
claims examiner, I do not think DOD could be processing these 
in the average of 12 days.
    Mr. Wurtz. Mr. Chairman, the only thing that I would add is 
that we have created a very detailed procedures guide. We have 
brought one down with us today, I believe to the staff, that 
will address some of these issues.
    Chairman Craig. All right. Gentlemen, my last question, 
then would be, as the operational and policy issues arise, is 
there an ongoing collaborative effort between DOD and VA in 
this? It appears there has been to date. Does that continue on 
a regular basis?
    Mr. Lastowka. That continues, Sir. The weekly calls are now 
biweekly calls. Obviously, they can call us up at any time that 
they wish to, but I think that we continue to cooperate. As 
recently as a month ago, we were reporting to the Joint 
Executive Council concerning the progress.
    Chairman Craig. OK. Well, gentlemen, thank you very much 
for your time and your testimony this morning. The Committee 
will stay alert to this program. We wanted to achieve the goals 
that Congress intended it to, and it appears we are clearly on 
our way to doing that.
    Thank you.
    Now, let me invite our second panel forward. Sergeant John 
Keith, United States Army, combat wounded veteran of Operation 
Iraqi Freedom; and Jeremy Chwat, Associate Executive Director, 
Policy and Service, Wounded Warrior Project.
    Gentlemen, again, thank you so much for being with the 
Committee this morning.
    Sergeant Keith, we will turn to you first. Please proceed.

   STATEMENT OF SERGEANT JOHN KEITH, COMBAT WOUNDED VETERAN, 
               OPERATION IRAQI FREEDOM, U.S. ARMY

    Mr. Keith. Thank you, Mr. Chairman.
    Thank you for allowing me to address the Committee. On 
November 9, 2004, while responding to an insurgent attack on a 
battalion convoy, the vehicle I was riding in was struck by a 
rocket propelled grenade, an RPG. The RPG struck the driver's 
side rear door where I was sitting. The blast shattered my 
femur bone, it took a big chunk out of my thigh, my ears were 
ringing, and it felt like I was on fire.
    The medic came and took me to the international zone and 
that is the last thing I remember. I woke up 14 days later at 
Walter Reed Army Medical Center. After leaving Iraq, I went to 
Langstul, Germany. That was where my wife, Pam, my parents, 
Brenda and John, Sr., met me. They told me I have to stay in 
Germany for 2 weeks due to a double lung injury.
    Within a few hours after arriving, the doctors told them 
that my lungs were improving, so I could be flown back to the 
States. My wife flew back to the States with me on the medevac 
plane and took care of me. I was then taken to Walter Reed Army 
Medical Center. While at Walter Reed, I underwent surgery on my 
leg every other day. I was able to keep my leg until December 
22, 2004. The doctors and I decided to take my leg off because 
I wanted to have an active life.
    After spending 60 days as an inpatient, I moved to the 
Mologne House where I spent the next 5 months living in a hotel 
room with my wife and two kids. All during this time, I was 
still assigned to Fort Hood, Texas, maintaining a house there 
with full utilities and also trying to support a family of four 
here in Washington, DC, eating out three times a day, renting a 
car, gas, and purchasing clothing for two growing kids. It was 
very difficult on a sergeant's pay. We went through our savings 
and more during this time.
    I learned about the insurance through the Wounded Warrior 
Project team I met at Walter Reed Army Medical Center. Every 
time I saw them they gave me an update on the progress of the 
bill. At first, I did not know whether I would qualify because 
I was injured before the bill was passed. But, as time went on, 
I understood it was retroactive to the start of the war.
    I remember thinking that the Government is really trying to 
take care of my family, even though I was just an enlisted 
Sergeant in a big Army. I received the maximum TSGLI payment 
due to the loss of my left leg above the knee, for being in a 
coma for 14 days, hearing loss in my left year, traumatic brain 
injury, and a third degree burn on my abdomen. I was able to 
replace my savings account, pay off most of my debts, and buy 
my wife a new van.
    So, whatever the Army will decide to do with me, either to 
stay on active duty or move me to the VA system, let me stay in 
or let me go, it will be OK. I hope that the Army will let me 
stay so I can finish what I started.
    Thank you, Sir.
    [The prepared statement of Mr. Keith follows:]

  Prepared Statement of Sergeant John Keith, Combat Wounded Veteran, 
                   Operation Iraqi Freedom, U.S. Army

    On November 9, 2004, while responding to an insurgent attack on a 
Battalion convoy, the vehicle I was riding in was struck by a Rocket-
Propelled Grenade (RPG). The RPG struck the driver's side rear door 
where I was sitting. The blast shattered my femur bone, taking a big 
chunk out of my thigh. My ears were ringing and I felt like I was on 
fire. The medics came and took me to the International Zone and that 
was the last thing I remembered. I woke up 14 days later. After leaving 
Iraq they sent me to Langstul Germany, that is where my wife Pam, and 
my parents John, Sr., and Brenda met me. They were told that I would 
stay in Germany for 2 weeks due to my double lung injury. Within 4 
hours of arriving, the doctors told them my lungs were improving so I 
could be flown back to the States. My wife flew back to the states with 
me and took care of me. I was taken to Walter Reed Army Medical Center 
(WRAMC). While at WRAMC, I underwent surgery every other day on my leg. 
I was able to keep my leg until December 22, 2004. The doctors and I 
decided to take the leg off because I wanted an active life. After 
spending 60 days as an inpatient, I moved to the Mologne House, where 
we spent the next 5 months living in a one-room hotel.
    All during this time I was still assigned to Fort Hood, Texas, and 
maintaining a house there with full utilities. Also, supporting a 
family of four here in Washington, DC, with food, eating out three 
times a day, renting a car, gas and purchasing clothing for two growing 
children was very hard to do on a sergeant's pay. We went through our 
savings and more during this time.
    The way I learned about the insurance was through Wounded Warrior 
Project team I met at WRAMC. Every time I saw them they gave me an 
update on the progress of the bill. At first, we did not know if it 
would apply to me because I was injured before the bills were passed. 
But as time went on, I understood it to be retroactive to the start of 
the war. I remember thinking that my government really is trying to 
take care of my family even though I was just an enlisted sergeant in a 
big Army.
    After receiving my TSGLI, payment of the maximum payment, due to 
the loss of my left leg above the knee, being in a coma for 14 days, 
hearing loss in the left ear, traumatic brain injury, and third degree 
burns to my abdomen. I was able to replace my savings, pay off most 
debts, and buy my wife a new van. So, whatever the Army will decide to 
do with me, either by staying active duty or move to the VA system, let 
me stay in or let me go I will be OK. We will be OK. I hope the Army 
will let me stay in to finish what I started.

    Chairman Craig. Sergeant, thank you very much for that very 
important testimony. We appreciate that for the record.
    Before I question you in any way, let me turn to you, 
Jeremy, for any comments you would wish to make before 
questioning. Thank you.

        STATEMENT OF JEREMY CHWAT, ASSOCIATE EXECUTIVE 
     DIRECTOR, POLICY AND SERVICE, WOUNDED WARRIOR PROJECT

    Mr. Chwat. Thank you, Chairman Craig.
    I thank you for convening this hearing and allowing me to 
testify about the Wounded Warrior Project's perception on the 
implementation of the new traumatic servicemember group life 
insurance program.
    The Wounded Warrior Project is a nonprofit organization 
that assists the men and women of the United States Armed 
Forces who have been severely injured during the War on 
Terrorism in Iraq, Afghanistan, and other hot spots around the 
world.
    One of our finest achievements has been the role we have 
played in the creation of the new traumatic injury insurance, 
on which this hearing is being held. The Wounded Warrior 
Program is still amazed by the speed with which this 
legislation was introduced and passed. We remain eternally 
grateful to you, Chairman Craig, for your unyielding commitment 
to seeing this legislation through to enactment.
    Additionally, we once again thank Senator Akaka, Senator 
Salazar, and Senator Thune for cosponsoring this measure, and 
for their leadership in having the program enacted.
    While none of this would have happened were it not for the 
determination of this Committee and the Chairman, once the bill 
was enacted, the lion's share of the work done on developing 
and implementing this program was by the Department of Veterans 
Affairs' Office of Servicemember Group Life Insurance, as well 
as by the Department of Defense, and the contact and claims 
certifying officials from the individual service branches.
    Wounded Warrior cannot speak highly enough of all the time 
and effort that has gone into creating this program, and I 
would like to publicly thank all of the involved agencies on 
behalf of the severely injured servicemembers and their 
families who, in their time of greatest need, have had many of 
their financial fears allayed as a result of these insurance 
payments.
    Overall, we are very pleased with the TSGLI program 
implementation. While there have certainly been bumps in the 
road during the implementation process, in just about every 
instance, VA and DOD have worked to remedy the problems, and 
the program continues to function with ever-increasing 
efficacy.
    For example, early on in the implementation process, there 
were concerns raised about the difficulty in filling out the 
application form and substantiating the servicemembers 
inability to perform various activities of daily living. In 
response, VA has worked to create a new and more comprehensive 
form that should eliminate many of these problems.
    Additionally, while manpower was stretched thin during the 
initial implementation process due to the onslaught of 
retroactive claims, these manpower issues have been worked out 
over time and no longer seem to be as much of an issue.
    Still, while we are happy with how the program has worked 
out, we are concerned with one inequity in the implementation 
of the retroactive payments. As you know, the intent of the 
traumatic injury rider is to help severely injured 
servicemembers and their families during the long and arduous 
treatment and rehabilitation periods that follows the 
occurrence of severe injuries.
    In most instances, this new insurance program has become 
the intended financial bridge from the time of injury until the 
warrior is eligible for VA benefits. It has allowed most 
families the flexibility to put their lives on hold at a 
moment's notice and be with their loved one during an 
oftentimes lengthy period of convalescence and recovery. It has 
ensured that most injured servicemembers can concentrate more 
fully on their recovery and the transition back into civilian 
life, rather than on the financial impact of their catastrophic 
injuries.
    Unfortunately, there are still a handful of Wounded Warrior 
servicemembers who were recently wounded while on active duty 
who do not qualify for the insurance payment. In addition to 
covering all active duty servicemembers with qualifying 
injuries incurred after December 1, 2005, thanks to Congress's 
generosity, the program makes retroactive payments to those 
servicemembers who incurred qualifying injuries since the 
beginning of Operation Enduring and Iraqi Freedom.
    As you know, Wounded Warrior never asked for any 
retroactive payments while lobbying for the traumatic injury 
insurance, and we remain extremely grateful that Congress had 
the foresight to extend payments to those warriors who were 
injured prior to the legislation's effective date.
    Unfortunately, as currently written, not all retroactive 
injuries are covered and this has resulted in confusion and 
perceived inequity on the part of some severely wounded 
servicemembers. As currently written, the regulation dictates 
that in order for a retroactive injury to be covered it must 
have been incurred in Operations Enduring Freedom or Iraqi 
Freedom. It then defines ``in Operations Enduring Freedom or 
Iraqi Freedom'' to mean that the servicemember must have been 
injured while deployed ``outside the United States on orders in 
support of Operations Enduring Freedom or Iraqi Freedom or 
served in a geographic location that qualified the 
servicemember for the combat zone Tax Exclusion under 26 U.S.C. 
211.''
    By defining ``in Operations Enduring Freedom or Iraqi 
Freedom'' as such, the regulation has disqualified a number of 
traumatically injured servicemembers from payment based solely 
on their location at the time their injury was incurred. 
Wounded Warrior project believes that there should be no 
difference between injuries incurred prior to December 1, 2005 
or after December 1, 2005, and that the same criteria that 
apply to prospective injuries should apply to retroactive 
injuries. It is inequitable to deny retroactive payments to 
those who have suffered the same grievous injuries based solely 
on the location where the traumatic event took place.
    Should the rule remain as written, brave men and women who 
were traumatically injured after October 7, 2001, but before 
December 1, 2005, will be denied the same retroactive payment 
given to their wounded comrades, based solely on the location 
they were ordered to, or were at, when their injuries occurred. 
Brave men and women like Seaman Robert Roeder, who was injured 
on January 29, 2005, when an arresting wire on the aircraft 
carrier, the USS Kitty Hawk, severed his left leg below the 
knee.
    Seaman Roeder was stationed out of Yokuska, Japan, and his 
ship was on its way to the Gulf of Arabia when his injury 
occurred during flight training operations. Although the ship 
was on its way to the Gulf and the training exercises being 
conducted were in preparation for action in either Operation 
Enduring or Iraqi Freedom, Robert's injury does not qualify for 
payment under the interim final rule as written.
    Robert was hospitalized at Brooke Army Medical Center in 
San Antonio, Texas, for over a year and his recovery and 
rehabilitation has been just as strenuous and arduous as it 
would have been had his ship made it to the Gulf of Arabia 
prior to his injury. Seaman Roeder is not the only wounded 
servicemember being impacted by this inequity. We strongly 
believe that corrective legislation should be passed so that 
Seaman Roeder and other warriors like him will not be deprived 
of this vitally important insurance.
    Again, Wounded Warrior is very pleased with the overall 
implementation of the TSGLI program, and we are very grateful 
for the hard work that has gone into making this program a 
reality. I cannot overstate how many people and families have 
benefited from this insurance at a time in their lives when 
they needed all of the assistance they could possibly get.
    The Wounded Warrior Project is honored to have played a 
role in its creation, and I thank you again for giving us this 
opportunity to testify.
    [The prepared statement of Mr. Chwat follows:]

   Prepared Statement of Jeremy Chwat, Associate Executive Director, 
              Policy and Service, Wounded Warrior Project

    Chairman Craig, Ranking Member Akaka, and Members of the Committee, 
I thank you for convening this hearing and for allowing me the 
opportunity to testify about the Wounded Warrior Project's perception 
on the implementation of the new Traumatic Servicemember Group Life 
Insurance (TSGLI) program.
    The Wounded Warrior Project (WWP) is a non-profit organization that 
assists the men and women of the United States Armed Forces who have 
been severely injured during the war on terrorism in Iraq, Afghanistan 
and other hot spots around the world. Beginning at the bedside of the 
severely wounded, WWP provides programs and services designated to ease 
the burdens of these heroes and their families, aid in the recovery 
process and smooth the transition back to civilian life. We strive to 
fill the vital need for a coordinated, united effort to enable wounded 
veterans to aid and assist each other and to readjust to civilian life.
    One of our finest achievements has been the role we played in the 
creation of the new Traumatic Injury Insurance on which this hearing is 
being held. WWP is still amazed by the speed with which this 
legislation was introduced and passed and we remain eternally grateful 
to Chairman Craig for his unyielding commitment to seeing the 
legislation through to enactment. Additionally, we once again thank you 
Senator Akaka for cosponsoring the measure and for your leadership in 
having the program enacted.
    While none of this would have happened were it not for the 
determination of Chairman Craig and Ranking Member Akaka, once the bill 
was enacted the lion's share of the work done on developing and 
implementing this program was by the Department of Veterans Affairs' 
Office of Servicemember Group Life Insurance as well as by the 
Department of Defense and the contact and claims certifying officials 
from the individual Service branches. WWP cannot speak highly enough of 
all the time and effort that has gone into creating this program and I 
would like to publicly thank all of the involved agencies on behalf of 
the severely injured servicemembers and their families who, in their 
time of greatest need, have had many of their financial fears allayed 
as a result of these insurance payments.
    Overall, the Wounded Warrior Project is very pleased with the TSGLI 
program implementation. While there have certainly been ``bumps in the 
road'' during the implementation process, in just about every instance 
VA or DOD have worked to remedy the problems and the program continues 
to function with ever increasing efficacy. For example, early on in the 
implementation process there were concerns raised about the difficulty 
in filling out the application form and substantiating the 
servicemember's inability to perform various Activities of Daily Living 
(ADLs). In response, VA has worked to create a new and more 
comprehensive form that should eliminate many of these problems. 
Additionally, while manpower was stretched thin during the initial 
implementation process due to the onslaught of retroactive claims, 
these manpower issues have been worked out over time and no longer seem 
to be as much of a problem.
    Still, while we are very happy with how the program has turned out, 
we are concerned with one major inequity in the implementation of the 
retroactive payments. As you know, the intent of the traumatic injury 
rider is to help severely injured servicemembers and their families 
during the long and arduous treatment and rehabilitation period that 
follows the incurrence of a severe injury. In most instances this new 
insurance program has become the intended financial bridge from the 
time of injury until the warrior is eligible for VA benefits. It has 
allowed most families the necessary flexibility to put their lives on 
hold at a moment's notice and be with their loved one during an 
oftentimes lengthy period of convalescence and recovery. It has ensured 
that most injured servicemembers can concentrate more fully on recovery 
and the transition back into civilian life rather than on the financial 
impact of their catastrophic injuries. Unfortunately, there are still a 
handful of wounded warriors who do not qualify for this insurance 
payment.
    In addition to covering all active duty servicemembers with 
qualifying injuries incurred after December 1, 2005, thanks to 
Congress' generosity the program makes retroactive payments to those 
servicemembers who incurred qualifying injuries since the beginning of 
Operations Enduring and Iraqi Freedom. As you know, WWP never asked for 
any retroactive payments while lobbying for Traumatic Injury Insurance 
and we remain extremely grateful that Congress had the foresight to 
extend payments to those warriors who were injured prior to the 
legislation's effective date. Unfortunately, as currently written, not 
all retroactive injuries are covered and this has resulted in confusion 
and perceived inequity on the part of some severely wounded 
servicemembers.
    As currently written the regulation dictates that in order for a 
retroactive injury to be covered it must have been incurred, ``in 
Operations Enduring Freedom or Iraqi Freedom''. It then defines ``in 
Operations Enduring Freedom or Iraqi Freedom'' to mean that the 
servicemember must have been injured while deployed, ``outside the 
United States on orders in support of Operations Enduring or Iraqi 
Freedoms or served in a geographic location that qualified the 
servicemember for the combat zone Tax Exclusion under 26 U.S.C. 211.''
    By defining ``in Operations Enduring Freedom or Iraqi Freedom'' as 
such, the regulation has disqualified a number of traumatically injured 
servicemembers from payment based solely on their location at the time 
their injury was incurred. WWP believes that there should be no 
difference between injuries incurred prior to December 1, 2005 or after 
December 1, 2005, and that the same criteria that apply to prospective 
injuries should apply to retroactive injuries. It is inequitable to 
deny retroactive payments to those who have suffered the same grievous 
injuries based solely on the location where the traumatic event took 
place.
    Should the rule remain as written brave men and women who were 
traumatically injured after October 7, 2001, but before December 1, 
2005, will be denied the same retroactive payment given to their 
wounded comrades, based solely on the location they were ordered to, or 
were at, when their injuries occurred. Brave men and women like Seaman 
Robert Roeder who was injured on January 29, 2005, when an arresting 
wire on the aircraft carrier, the USS Kitty Hawk, severed his left leg 
below the knee. Seaman Roeder was stationed out of Yokuska, Japan and 
his ship was on its way to the Gulf of Arabia when his injury occurred 
during flight training operations. Although the ship was on its way to 
the Gulf and the training exercises being conducted were in preparation 
for action in either Operation Enduring or Iraqi Freedom, Robert's 
injury does not qualify for payment under the Interim Final Rule as 
written. Robert was hospitalized at Brooke Army Medical Center in San 
Antonio, Texas for over a year and his recovery and rehabilitation has 
been just as strenuous and arduous as it would have been had his ship 
made it to the Gulf of Arabia prior to his injury.
    Seaman Roeder is not the only wounded servicemember being impacted 
by this inequity in the regulation. We strongly believe that the 
regulation should either be rewritten or corrective legislation should 
be passed so that Seaman Roeder and other wounded warriors like him 
will not be deprived of this vitally important benefit, one with a 
stated mission of assisting in their rehabilitation and transition into 
civilian life.
    Again, WWP is very pleased with the overall implementation of the 
TSGLI program and is very grateful for all of the hard work that has 
gone into making this program a reality. I cannot overstate how many 
people and families have benefited from this insurance at a time in 
their lives when they needed all the assistance they could get. The 
Wounded Warrior Project is honored to have played a role in its 
creation and I thank you again for giving us this opportunity to 
testify.

    Chairman Craig. Jeremy, thank you very much.
    Sergeant Keith, first of all, on behalf of the Committee, 
let me thank you for your service and your commitment. As many 
of my colleagues have already said, you are, without question, 
one of our heroes, and we do not state that lightly.
    You are also a perfect example of why we moved the 
legislation that we did, that is now law. Because we 
recognized, as was so clearly stated by those who the Wounded 
Warrior Project brought to me, that this was not just about you 
or the particular service person. It was about the family, the 
wife, the mother, the father, the children, and oftentimes we 
forget that when we see a wounded servicemember. Our eyes and 
attention are focused on them. But behind them, in almost all 
instances, is a family that is suffering in some form and to 
some degree. Certainly not to the physical extent, but maybe to 
the mental extent, and all the emotions that go with that, as 
you well know.
    In all of that, one of the greater frustrations is 
continuing on. And if you have a financial burden, it adds to 
that dramatically. So, I think your testimony today, the way 
you laid it out for us, is extremely important for the record 
and it reflects clearly what we intended to do with this law.
    Mr. Keith. Thank you, Sir.
    I have said it many times that not just the soldier gets 
wounded, the whole family gets wounded. It was a very stressful 
time for my whole family. My daughter, who is 5 years old, did 
not really know what was going on. She just knows that Dad lost 
his leg. My son, fortunately, is only going to know me with 
having only one leg, but I can still get him if he gets in 
trouble.
    [Laughter.]
    Chairman Craig. For a time.
    Mr. Keith. I will catch him. I will get him, eventually.
    The whole program, I had nothing but good experience. The 
Army Wounded Warrior Program initiated the paperwork, I think 
it was like 2 days before it was supposed to be enacted, to 
make sure that we would get all of the paperwork filled out by 
the doctors and all that.
    They met with us on a Wednesday when we went through 
amputation clinic, and we filled out all the paperwork then so 
they could submit it that day. I received mine about 30 days 
later, but everything went smoothly.
    Chairman Craig. Good. Well, thank you very much.
    Jeremy, first of all, we appreciate your overall reaction 
to what you brought to us and hoped to be a success. By most 
definitions, I think it clearly is a success. But you also 
bring up the issue of definition, and those who fell outside of 
that definition.
    In bringing the case in point, and the individual that you 
brought in that case, has Wounded Warrior Project, in any way, 
determined the number of those who are qualified that might be 
out there, but fall outside of the definition?
    Mr. Chwat. I have personally heard of a handful of cases. 
It really depends on how widely you extend the definition.
    Chairman Craig. Yes, of course.
    Mr. Chwat. Do you extend the definition to include all 
active duty servicemembers who may have been stateside in 
training who were injured in some way, be it on the way to or 
from base, or those types of things, or do we expand it to 
include those who were clearly on route to combat or in a 
specific training exercise?
    So, it really would depend on how we redefine the 
retroactive applicability. I should note that, though, when it 
came to the increase in the servicemember group life insurance 
benefit for survivor families who died before that insurance 
premium was raised, the benefit was raised, that Congress did 
go back and retroactively apply it to all of those 
servicemember families who lost a loved one during that time 
period.
    So, there is some Congressional precedent to do that.
    Chairman Craig. Yes, there is.
    Well, we will take a look at that. I think that you make a 
very important point. When we write legislation, you never 
quite know where the lines fit or do not fit, are fair or 
demonstrate an inequity.
    As we all know, lines have to be drawn, and it is important 
that they are effectively drawn, just like the last panel. How 
do you define traumatic? It was not intended to be broad. It 
was intended to serve those who truly fit a definition. And, at 
the same time, it was not intended to exclude those who fit the 
definition, but fell outside the fine line of time or 
relationship to a given point in time in operations.
    So, I appreciate you bringing that before the Committee. We 
will take a look at that and work with DOD and VA to see where 
that might fit, and what might be more appropriate in 
relationship to that.
    The example that you have cited--I do not think that we can 
quibble over that, but by apparent definition, that gentleman 
falls outside the line.
    Mr. Chwat. Yes.
    Chairman Craig. Well, thank you both very much again for 
participating and being with us through this, especially the 
Wounded Warrior Project. You have served your purpose mightily, 
and I think the Sergeant would agree with that.
    Mr. Chwat. Thank you.
    Chairman Craig. Thank you both very much. We appreciate it.
    Mr. Keith. Thank you, Sir.
    Chairman Craig. The Committee will stand adjourned.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]
  

                                  <all>

</pre></body></html>
